<html>
<title> - OUTSIDE PERSPECTIVES ON TRANSITIONING SECURITY TO THE IRAQI SECURITY FORCES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-49]
 
                        OUTSIDE PERSPECTIVES ON
                       TRANSITIONING SECURITY TO
                       THE IRAQI SECURITY FORCES

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 28, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                    U.S. GOVERNMENT PRINTING OFFICE
37-323                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                 MARTY MEEHAN, Massachusetts, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
VIC SNYDER, Arkansas                 ROSCOE G. BARTLETT, Maryland
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        JEFF MILLER, Florida
ROBERT ANDREWS, New Jersey           PHIL GINGREY, Georgia
SUSAN A. DAVIS, California           K. MICHAEL CONAWAY, Texas
JIM COOPER, Tennessee                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                Lorry Fenner, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                     Sasha Rogers, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, March 28, 2007, Outside Perspectives on Transitioning 
  Security to the Iraqi Security Forces..........................     1

Appendixes:

Wednesday, March 28, 2007........................................    39
                              ----------                              

                       WEDNESDAY, MARCH 28, 2007
 OUTSIDE PERSPECTIVES ON TRANSITIONING SECURITY TO THE IRAQI SECURITY 
                                 FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Meehan, Hon. Marty, a Representative from Massachusetts, 
  Chairman, Oversight and Investigations Subcommittee............     1
Miller, Hon. Jeff, a Representative from Florida, Oversight and 
  Investigations Subcommittee....................................     2

                               WITNESSES

Cordesman, Dr. Anthony H., Arleigh A. Burke Chair in Strategy, 
  Center for Strategic and International Studies.................     3
Kagan, Dr. Frederick W., Resident Scholar, American Enterprise 
  Institute......................................................     5
Oliker, Olga, Senior International Policy Analyst, RAND 
  Corporation....................................................    11
Perito, Robert M., Senior Program Officer, Center for Post-
  Conflict Peace and Stability Operations, United States 
  Institute of Peace.............................................     9

                                APPENDIX

Prepared Statements:
    Akin, Hon. Todd..............................................    45
    Kagan, Dr. Frederick W.......................................    48
    Meehan, Hon. Marty...........................................    43
    Oliker, Olga.................................................    62
    Perito, Robert M.............................................    56

Documents Submitted for the Record:
    Choosing Victory, A Plan for Success in Iraq, Phase II 
      Summary and Recommendations by Frederick W. Kagan..........   125
    Iraqi Force Development and the Challenge of Civil War, The 
      Critical Problems and Failures the U.S. Must Address if 
      Iraqi Forces Are to Do the Job by Anthony H. Cordesman.....    81

Questions and Answers Submitted for the Record:
    Mr. Meehan...................................................   143


 OUTSIDE PERSPECTIVES ON TRANSITIONING SECURITY TO THE IRAQI SECURITY 
                                 FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                         Washington, DC, Wednesday, March 28, 2007.
    The subcommittee met, pursuant to call, at 1:44 p.m., in 
room 2118, Rayburn House Office Building, Hon. Marty Meehan 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MARTY MEEHAN, A REPRESENTATIVE FROM 
     MASSACHUSETTS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS 
                          SUBCOMMITTEE

    Mr. Meehan. Thank you very much for your patience. We had a 
vote over at the House, but we are going to get started.
    I spoke to Mr. Akin on the floor. He said that he would be 
a couple of minutes late, but I think Mr. Miller will take his 
place if he is not here.
    Good morning, and welcome to the first open hearing of the 
Subcommittee on Oversight and Investigations.
    Today, we will continue our examination of the most 
pressing issue facing the country: the war in Iraq.
    The Iraq Strategy Review unveiled by the president on 
January 10th identified the continued strengthening of the 
Iraqi Security Forces (ISF) and the acceleration of the 
transition of security responsibility to the Iraqi government 
as an objective achievable in the next 12 to 18 months. Key to 
whether this transition will be successful will be the 
capability of the ISF, both military and police.
    In addition to a number of full committee sessions, this is 
the fourth time that our subcommittee has met to consider the 
development of the Iraqi Security Forces.
    In the closed briefings we held this month, we learned 
about ISF's logistics systems and issues related to size, 
composition, training and end strength of the Iraqi Security 
Forces. Last week, we examined financial aspects of the 
transition of funding responsibilities to the Iraqi government.
    In today's hearing, we will receive testimony from experts 
who have been analyzing the development of the ISF. The 
witnesses' testimony will cover a variety of issues associated 
with the administration's goal of transitioning security 
operations by January 2008, including manning, training and 
equipping the Iraqi Security Forces, the logistical and 
ministerial support necessary to sustain the ISF and, most 
importantly, the actual and projected capabilities of the ISF.
    Other issues we would like to address include the critical 
role that advisers and transition teams play in assessing the 
performance of Iraqi Security Forces, the degree to which we 
have relied on contractor support for the development of the 
ISF, and the transition of primary financial responsibility for 
the Iraqi Security Forces.
    We hope to hear our guests' frank appraisals of whether it 
is realistic to expect the Iraqi Security Forces to take the 
lead in providing security by January 2008. Today, we hope to 
hear about the Department of Defense's (DOD's) challenges and 
recommendations for overcoming those challenges.
    Today, this hearing will begin with testimony from Dr. 
Anthony Cordesman, who holds the Burke Chair in Strategy at the 
Center for Strategic and International Studies. He will be 
followed by Dr. Frederick Kagan, a resident fellow at the 
American Enterprise Institute; Mr. Robert Perito, who is a 
senior program officer with the United States Institute of 
Peace; and Ms. Olga Oliker, who is senior international policy 
analyst with the RAND Corporation and served with the coalition 
provisional authority (CPA).
    To encourage discussion, I would like to follow the same 
less formal procedures today that we have in our prior 
briefings. I have talked with our distinguished ranking member, 
and he has agreed to dispense with the five-minute rule during 
today's hearing.
    So, pursuant to Rule 11(b)(2) of the rules of our 
committee, the subcommittee will dispense with the five-minute 
rule, allowing questioning to proceed as subcommittee members 
express interest rather than strictly by seniority. I will 
endeavor to alternate in recognizing members between the 
majority and minority.
    I would like to remind everyone that, while this is an open 
hearing, we have received closed briefings in which classified 
information was presented. So, please, be mindful of anything 
that you might say based on what you heard in earlier 
briefings.
    Welcome again to our witnesses. We appreciate you taking 
the time. We looking forward to your remarks.
    We will take your whole text for the record, if you wish, 
but we would like you to present remarks fairly briefly so that 
we can get to our questions.
    And now, in lieu of Mr. Akin, I would like to turn to Mr. 
Miller for any opening remarks that he may have in Mr. Akin's 
absence.
    [The prepared statement of Mr. Meehan can be found in the 
Appendix on page 43.]

 STATEMENT OF HON. JEFF MILLER, A REPRESENTATIVE FROM FLORIDA, 
           OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Miller. Yes, I thank the distinguished chair, and I ask 
unanimous consent that Mr. Akin's remarks be submitted for the 
record.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 45.]
    Mr. Miller. To the witnesses, thanks for being here today.
    Dr. Kagan, it is good to see you again, sir.
    Before we get to your testimony and the questions that we 
will have to ask, I think some points need to be made.
    Certainly, criticism of the ISF and our training efforts is 
easy to come by these days, you see it everywhere, but as most 
of us would say, what is the alternative? I, for one, and I 
think every member of this committee does not believe that we 
should have American troops in Iraq indefinitely. So, as a 
reminder, I think we must succeed in this mission.
    I believe Dr. Kagan has said it very well. From the outset, 
it would have been wiser to see the ISF as a force that could 
assist the coalition in suppressing the Sunni Arab insurgents, 
al Qaeda and related terrorists, and then Shiite militias, but 
that would, above all, be able to maintain order once it had 
been established.
    The President's new strategy has embraced this more 
realistic view, and events on the ground are beginning to 
validate this approach. So, in order to ensure success, we as a 
congress must be wary of requesting too many documents that are 
at the tactical level and in previous wars would have never 
been available due to the lack of current available information 
technology assets.
    But, on the other hand, our friends at the Office of the 
Secretary of Defense must ensure that they meet our requests 
for relevant documents in a timely manner, and if the 
department does not want to submit them to Congress, they 
should say so and not just slow roll us.
    Last, we must keep the proper perspective on this entire 
endeavor. In our instant gratification society, it is easy for 
someone in Washington, D.C., to say the level of illiteracy 
amongst Iraqi recruits is too high. Throughout history, many 
armies and navies conquered entire civilizations with thousands 
of illiterate soldiers. Training coupled with effective 
leadership and accountability are key, and I hope at some level 
our subcommittee can address these issues.
    I yield back, Mr. Chairman.
    Mr. Meehan. Thank you very much.
    Mr. Akin, he just read your remarks. He did it quite well.
    Mr. Miller. You were very good.
    Mr. Akin. Thank you.
    Mr. Meehan. Dr. Cordesman, if you could begin.
    Again, thank you very much, and I apologize for being late. 
We had a series of votes.
    Dr. Cordesman, if you could start?

 STATEMENT OF DR. ANTHONY H. CORDESMAN, ARLEIGH A. BURKE CHAIR 
  IN STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Cordesman. Thank you very much, Mr. Chairman.
    I have prepared a detailed formal statement and analysis of 
Iraqi Security Forces, and I do request it be included in the 
record. It describes a whole series of issues in the 
development of these forces that, I think, show clearly that 
they are years away from being ready to take over the mission 
in early 2008.
    But, in my brief oral remarks, however, I would like to 
strike a somewhat different theme. Nearly half a century ago, I 
entered the Office of the Secretary of Defense at a time when 
it was neoliberals that had thrust us into a war in Vietnam. 
Over the years that followed, I saw the same tendency in that 
war to downplay the risks and threats and the internal 
divisions in the Nation where we fought that I see in the way 
this Administration treats the Iraq war today.
    I also saw a subculture build up within the executive 
branch that exaggerated our successes in introducing democracy, 
in using foreign aid and in bringing security to the people. I 
saw a shift over time from reliance on to our own forces to 
what we call Vietnamization, and then I saw withdrawal from a 
nation where we had created a government and military forces 
that remained dependent on us--for money, for vast amounts of 
weapons and supplies, and for the threat that Vietnam would be 
bombed if it invaded.
    The Army of the Republic of Vietnam (ARVN) was never 
running for independent action. It had made real progress in 
many areas, and key units did fight well and with great 
courage, but its overall development and capabilities, however, 
had been grossly exaggerated in virtually all of the reporting 
to the Congress and indeed to the Secretary. It remained 
dependent on American support, and when the Congress ceased to 
fund and provide aid and the U.S. ceased to provide a credible 
threat to North Vietnam, it could not possibly survive.
    Much of the tragedy that has followed has been eased with 
time. Vietnam is now a friendly state and making progress in 
many areas. The fact remains, however, that I watched for 
nearly three decades as many of the ARVN and as Vietnamese 
intelligence cadres which had served us remained in camps and 
were subject to threats and constant political pressure. When I 
visited Vietnam several years ago, I found their sons and their 
grandsons were still under that pressure.
    As I testify today, I cannot forget these experiences. I 
cannot forget the problems we created by exaggerating our 
successes in Vietnam, in training Lebanese forces in the 1980's 
and, indeed, as we have done in the first five years in 
Afghanistan.
    We have been where we are in Iraq several times before, and 
we have done great damage to the countries we were supposed to 
aid in the process. We are now dealing with the legacy of 
neoconservatives in a badly planned and executed gamble with 
the lives of 27 million Iraqis. We have again lied and 
exaggerated our progress in political development, in security 
efforts, in economic aid and in the development of post-country 
forces.
    For the second time in my life, I fear that we are going to 
see a failed president and a failed administration preside over 
a failed war. I cannot promise you that we can avoid this. The 
chances are all too great that we cannot.
    I cannot believe, for example, that we can ever succeed in 
Iraqi force development unless we can succeed in persuading the 
Iraqis to achieve political conciliation between Arab Sunni, 
Arab Shiite and Kurd. As General Petraeus and many other senior 
military officers have said, the key to security is not 
military. It is political.
    I also cannot deny that much of the official reporting on 
Iraqi force readiness and progress in Iraqi force development 
is the same tissue of lies, spin, distortion and omission I saw 
in Vietnam. There is no integrity in the reporting on manpower 
and in the number of units in the lead. Very real progress and 
success has been distorted and exaggerated almost to the point 
of absurdity. The critical linkages between creating effective 
regular military forces and creating effective police, rule of 
law and government services have been misrepresented or 
ignored.
    As in Vietnam, we have downplayed the present and future 
degree of Iraqi dependence on U.S. equipment and aid. We have 
downplayed how dependent these forces are and will remain in on 
U.S. air power, armor, artillery, embeds, partner units and 
support.
    I have seen us rush undertrained, underequipped and 
inexperienced units into combats and missions for which they 
were not ready. I have seen us basically create a force that 
can sometimes win, but is not ready to hold and is certainly 
not ready to build.
    And now when I come before you this committee, this country 
is in the middle of an ever more bitter partisan debate over 
withdrawal from Iraq. The irony is, however, that we may 
collectively be moving toward a bipartisan effort to rush our 
forces out of Iraq years before Iraqi forces are really ready 
and with far too little regard for the human cost to Iraq and 
our strategic position in the Gulf.
    The Congress seemingly wants out in order to end the war. 
The administration seemingly wants a cosmetic victory in 
Baghdad to declare victory and to leave. We may have to leave. 
Open civil war, failure at conciliation, the inability to 
provide nationwide security and/or a steadily more bitter low-
level sectarian and ethnic conflict may leave us no choice.
    But I urge you in your deliberations to think long and hard 
about such actions and particularly about abandoning Iraq too 
soon if there is still hope. I urge you not to confuse the lies 
and exaggerations about ISF readiness with our ability to rush 
out of Iraq and leave the fighting to them. I urge you not to 
ignore the real progress these forces have actually made and 
what a meaningful and honest long-term force development 
program could do over the next three to five years if Iraq 
moves toward conciliation.
    You cannot win by relying on these forces to take over in 
January 2008. They need years of continuous support. We talk 
about long wars and winning them. It takes patience, resources, 
persistence and time, but there is a core of real competence 
under the smokescreen of spin and propaganda.
    As long as there is real hope of broader progress in Iraq, 
the ISF and the Iraqi people should no more have to pay for the 
mistakes of American neoconservatives than the ARVN and the 
Vietnamese people should have had to pay for the mistakes of 
neoliberals.
    Thank you.
    [The document submitted by Dr. Cordesman can be found in 
the Appendix on page 81.]
    Mr. Meehan. Thank you.
    Dr. Kagan.

STATEMENT OF DR. FREDERICK W. KAGAN, RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Dr. Kagan. Thank you, Mr. Chairman, members of the 
subcommittee. It is a pleasure to be here before you speaking 
about this extremely important topic. I will try to keep my 
remarks brief so that we can get to your questions and address 
your concerns.
    I would like to pick up on one comment that Dr. Cordesman 
and many others have made, which is the consistent comparison 
between Iraq and Vietnam.
    Apart from the many, many, many obvious differences between 
Iraq and Vietnam, including the differences between jungle and 
desert and the fact that there were hundreds of thousands of 
North Vietnamese conventional soldiers in South Vietnam which 
rather complicated the task at hand, one of the most important 
differences, I suspect Dr. Cordesman would agree with me on, is 
the consequences of leaving the Vietnam were far less than I 
fear the consequences of leaving Iraq prematurely would be, and 
that is something that I think we must take into consideration.
    We can talk as much as we want to about similarities and 
differences between these conflicts, but we should not in any 
way take it for granted that the consequences of making the 
same decision today will be the same as they were then, which 
is to say decades of the sort of hardship that Dr. Cordesman so 
pointedly described followed ultimately by some sort of 
reconciliation and no great pain. I do not believe and many 
analysts do not believe that that would be the likely result of 
a premature withdrawal from Iraq.
    I would like to start by pointing out that what we have 
actually accomplished in Iraq with the Iraqi Security Forces in 
the past four years--really three years is about how long we 
have been actively working on trying to get the right sort of 
Iraqi Army going--has really been rather remarkable. We have 
something like 135,000 soldiers in the Iraqi Army trained to 
some standard, not as high as we would like necessarily, but 
not nonexistent, equipped to a basic standard, again not as 
high as we would like, but still equipped.
    I would like to remind the committee that 135,000 soldiers 
is larger than the standing armies of France and Britain and 
that we started from scratch. And we started from scratch doing 
it all over, building an army of the sort that Iraq has not 
seen before. Iraq used to have a conscript army on the Soviet 
model without a meaningful non-commissioned officer (NCO) 
corps.
    We have built an all-volunteer force that is more similar 
to our model with an increasingly professional NCO force. We 
have changed all sorts of things about the way officers are 
seen, the way NCOs are seen, the way privates are seen and the 
way they all relate to one another. We have fundamentally 
revolutionized the way that the Iraqis think about their Army 
and what it is.
    We have done that in four years. That is quite a remarkable 
accomplishment, and I think that we should keep that in mind.
    With the Iraqi police, we have been rather less successful 
as is well known, and I would like to pause here to make it a 
general comment, just to step aside from the Iraq debate and 
make a point that I think is vital for our national security 
across the board. We actually do not know how to build police 
forces very well, and by we, I mean not just the United States, 
but North Atlantic Treaty Organization (NATO) because NATO has 
had the mission of building the Afghani police and it has had 
the mission of building the police in the Balkans and it has 
been heavily involved in the mission in Iraq, and this seems to 
be a capability that is not actually resident in the alliance.
    It is objectively difficult. It is objectively difficult 
for the United States to do because we do not have a national 
police force or paramilitary capabilities to draw on. So, as we 
look at the difficulties that we face in Iraq here, I think we 
need to recognize broader difficulties that it would well 
behoove us to address in a larger schema.
    As I noted in my testimony, I would like to highlight again 
the expectations that the administration fostered and that many 
in Congress are now fostering and many people are attempting to 
foster that we would be able rapidly to turn the task of 
establishing security in Iraq over to the Iraqi Security Forces 
were always exaggerated and unrealistic, and I have never 
believed that that was an appropriate way to go, as I have 
noted on numerous occasions in the past.
    The tasks involved in creating peace when you have a large-
scale insurgency morphing into insurgency and sectarian 
conflict are very likely to be beyond the means of a brand-new 
force that is only a couple of years into its existence, 
especially a force that has been formed in that context, and 
that is why I and others have consistently argued that before 
we can think about transitioning responsibility for security to 
the Iraqis, we first have to take the lead with them in 
establishing a basic level of security that they can then 
maintain, and this has not been our strategy to date.
    Our strategy to date, prior to the President's change of 
strategy this year, has been to focus on transitioning and 
transferring responsibility, and we have been given a lot of 
metrics, which I agree are fairly meaningless, about how many 
Iraqi units are in the lead here, hither and yon. That has not 
been significant because we have not been taking the lead in 
fulfilling our part of our responsibility to help the Iraqis 
establish security in their country.
    We have finally started to do that, and I believe that the 
president's strategy, which focuses on establishing security 
with the Iraqis so that the Iraqis, initially with our help and 
ultimately being weaned off our help, will be able to maintain 
the security that has been established, is the only reasonable 
approach and is an approach which I think is already bearing 
fruit.
    I would like to just mentioned a number of accomplishments 
that have been made not in terms of numbers but just in terms 
of reality. The Baghdad security plan, which the Iraqi 
government participated in forming and developing and which it 
has backed, which incidentally also has the formal stated 
backing of Abdul Aziz al-Hakim and even Muqtada al-Sadr, 
although he does not like the American participation in it, 
called for the deployment of nine Iraqi Army battalions and a 
similar number of Iraqi National Police battalions into 
Baghdad.
    Many people were skeptical that anyone would be able to 
accomplish this feat because looking back at Operations 
Together Forward I and II last year, the Iraqis were not able 
to deploy a smaller number of forces into Baghdad when we 
requested them to.
    This time around, we have it right with them, and there are 
a number of reasons for that, including fairly trivial things, 
planning for where the Iraqis would arrive when they got toward 
Baghdad, giving them extra hazardous duty and combat pay, 
giving them a normal deployment cycle and so forth.
    We did not do those things in Operations Together Forward I 
or II. We have done them in this operation, and as a result, of 
the nine battalions called for, nine battalions have arrived. 
The have arrived at anywhere from 50 to 75 percent of their 
strength. The later in the sequence they have arrived, the 
higher their strength levels have been.
    General Dempsey reports that those units that have arrived 
under strength because soldiers chose not to come with their 
unit, that those soldiers will be dismissed, that they will be 
replaced from the pool of Iraqis who are now training to join 
the force; in other words, that the Iraqis are serious about 
getting forces into their capital to participate in the 
security plan.
    But this is not just about what is going on in the capital, 
and I think that we can talk too much about the Baghdad 
security plan without recognizing sea changes that have 
occurred in Al Anbar province.
    For the first three years of this conflict, we thought--and 
most people thought--that the major problem that we faced was 
the Sunni Arab insurgency based in Al Anbar province and allied 
with al Qaeda, and it was said that we would never be able to 
make any progress there and reconciliation was impossible.
    One of the things that was identified as a major problem 
was that we could not get Sunni Arabs in Anbar to join the Army 
or the police. We have seen that situation reversed in recent 
months. Al Qaeda has made a number of stupid mistakes, and we 
have done a number of things right, and as a result, the 
majority of major Sunni tribal leaders in Al Anbar have now 
turned against al Qaeda and are flooding the police forces at 
Fallujah and Ramadi with their sons who are now actively 
combating al Qaeda in the streets, something that would have 
been unimaginable even six months ago. That is a major 
accomplishment.
    In the north of Iraq, Multinational Division North has a 
single brigade to cover all of Ninewah province and additional 
parts of its area of responsibility (AOR), but one brigade in 
Ninewah province. It is supported in that endeavor by 18,000 
Iraqi police and 20,000 Iraqi Army soldiers. Now, the peace in 
Ninewah is certainly precarious, and there was an unfortunate 
incident just recently in Tal Afar that was reported. 
Obviously, the situation is not perfect.
    On the other hand, when you look at the force ratios in 
Ninewah, which is a very large area and includes Iraq's second 
largest city of Mosul where there is a single U.S. battalion 
assisting Iraqis to maintain peace in a city of 1.8 million, 
you have to recognize that we have made significant progress 
there. The Iraqis have made significant progress in 
establishing a headquarters, a general Iraqi ground forces 
command, in establishing division headquarters. Progress is 
being made, as you have been briefed on, on logistics.
    Nothing is perfect. The Iraqi Security Forces are far from 
perfect, and I agree with Dr. Cordesman that it will not be 
overnight that you will see an Iraqi security force that is 
going to be able to function independently. We have not until 
very recently even tried to create a force that could function 
independently.
    We have focused excessively on getting Iraqi light infantry 
into the fight rapidly at the expense of developing the 
institutional base. We are now addressing that problem. I think 
that we are certainly a year away from having that problem 
addressed. I cannot predict when exactly it would be possible 
to transition lead for maintaining security in Iraq over to the 
Iraqis. This is a war. You cannot make precise predictions 
about how long things will take, and I think we make a mistake 
when we can imagine that we can have a railway timetable for 
this conflict anymore than you could have had for any previous 
conflict.
    What I am sure of is that if we establish security 
beginning in Baghdad--Anbar is already establishing a much 
greater degree of security than it has seen before; Ninewah is 
also working toward establishing a greater degree of security; 
we will have to work in Salah al-Din and Diyala and other areas 
in Iraq--if we help the Iraqis to establish security, then we 
will hasten the day when we can transition responsibility to an 
Iraqi force which is also growing in strength and capabilities, 
not only through our embedded teams, not only through our 
training systems, but by partnering with our outstanding 
soldiers on a day-to-day basis where they see what excellence 
in operations looks like and where they see what 
professionalism looks like.
    That is an essential component. It is a component of this 
plan, and is something that I think will help lead us to the 
ultimate goal which we all share which is an Iraq that can 
maintain security, defend itself and function independently.
    [The prepared statement of Dr. Kagan can be found in the 
Appendix on page 48.]
    Mr. Meehan. Mr. Perito.

 STATEMENT OF ROBERT M. PERITO, SENIOR PROGRAM OFFICER, CENTER 
FOR POST-CONFLICT PEACE AND STABILITY OPERATIONS, UNITED STATES 
                       INSTITUTE OF PEACE

    Mr. Perito. Thank you, Mr. Chairman. I would like to thank 
you and the other members of the subcommittee for inviting me 
here this afternoon. I will give a summary of my statement, and 
I am glad to know that the entire statement will be submitted 
for the record.
    I have to say that the views that I express this afternoon 
are my own and not those of the United States Institute of 
Peace which does not advocate specific policy positions.
    The year 2006, which the Defense Department had declared as 
the year of the police in Iraq, ended with the completion of 
what was called the force generation phase of the U.S. Police 
Assistance Program. One hundred eighty-eight thousand police 
have been trained and equipped; 220 police transition teams 
were embedded with Iraqi forces; nearly 100 American advisers 
were working in the interior ministry.
    Now, these statistics are impressive, but they mask a 
troubled reality. In truth, U.S. military authorities did not 
know how many police there were in Iraq or how many police 
stations. They did not know how many people that had passed 
through our training programs were actually serving in the 
police, nor could they account for the weapons or the equipment 
that had been issued.
    The Iraqi police were unable or incapable of controlling 
crime or protecting Iraqi citizens, and the Iraqi border police 
could not control the country's borders. Some Iraqi police 
commando units were operating as sectarian death squads. Only 
five Iraqi provinces had an adequate number of U.S. police 
advisory teams. The Ministry of the Interior which controlled 
the police was administratively dysfunctional and heavily 
influenced, if not controlled in some cases, by Shiite 
militias.
    Now, how did this happen? Under Saddam Hussein, the Iraqi 
police were at the bottom of a hierarchy of security agencies. 
They were poorly trained, ill-equipped, badly led, corrupt, 
brutal and distrusted by the population. Their duties were 
largely limited to traffic control and dealing with petty 
crime.
    However, U.S. war planners counted on the Iraqi police to 
remain on duty and provide internal security after the United 
States captured Baghdad. Instead, the Iraqi police took their 
weapons and went home. Baghdad was looted, and Iraqis were 
victimized by an epidemic of violent crime.
    Now, how did the U.S. respond to this? After weeks of 
chaos, United States military invited the Iraqi police to 
return to duty, but, by then, Iraqi police stations had been 
destroyed by looters, and their equipment and vehicles had been 
stolen.
    In May 2003, the United States Justice Department (DOJ) 
police assessment team determined that the Iraqi police could 
not maintain order without extensive assistance and external 
aid. This team recommended the provision of 6,600 international 
police advisers, an extensive training program, new equipment 
and a major building program to repair the destroyed 
infrastructure.
    In Washington, these recommendations were not acted upon, 
and little was done until the following year when a growing 
insurgency compelled action. The United States response was for 
the first time to put the Defense Department in charge of 
training a local police force.
    In March 2004, President Bush signed a directive which 
assigned responsibility for the Iraqi police assistance program 
to the Defense Department. The result was an emphasis on 
militarizing the police and utilizing the police to assist the 
United States in fighting the insurgency.
    The results were predictable, and they were tragic. The 
Iraqi civilian police, the street cops, were not trained, nor 
were they equipped for this role. Concentration on the 
insurgents left criminals free to operate with impunity and 
organized crime to flourish.
    When the civil police faltered, the U.S. military organized 
counterinsurgency police units, commando style units made up of 
former Iraqi soldiers, that were not given police training. In 
2005, when a Shiite senior political leader took over control 
of the Interior Ministry, Shia militia moved into the Interior 
Ministry and took over these police commando units.
    Now, what can we do about this? The current interior 
minister, Jawad al-Bulani, has publicly called for reform of 
his ministry and the purging of those police who are guilty of 
crimes and sectarian violence. Now, this is a good start. The 
United States should now double the number of its advisers and 
undertake the slow and often painful work of organizational 
transformation of the interior ministry.
    The Iraqi police service, the street cops, need to be 
retrained, reequipped and legally authorized to fight crime and 
protect Iraqi civilians. This will involve giving the Iraqi 
police service new authority to conduct criminal investigations 
and strengthen its organized crime unit and task force and 
authorizing these units to operate nationwide.
    The commando units that have been brought together under 
what is called the Iraqi National Police should be vetted, 
retrained, a process going on now, and then transferred to the 
Iraqi Defense Ministry along with the Iraqi border police. 
Transferring these units will bring them under closer U.S. 
supervision. It will also enable these units to better perform 
their counterinsurgency mission.
    Today, all of the battalions and all of the brigades of the 
Iraqi National Police, with one exception, are operating in 
Baghdad alongside U.S. and Iraqi military forces.
    Now, that DOD has completed the force generation phase of 
the Police Assistance Program, it is time to transfer 
responsibility for the U.S. Police Assistance Program to the 
Department of Justice which should be placed in charge. 
Congress should give DOJ the authority and the funding to 
enable American law-enforcement professionals to work with and 
assist their Iraqi counterparts.
    Never before in all of the peace and stability operations 
in which the United States has engaged has the United States 
military been placed in charge of police training, and I agree 
with Dr. Kagan this is not a skill which the United States 
military nor our NATO military alliance partners should 
address. It is time to switch this responsibility to civilian 
law-enforcement personnel who have done this work in many other 
countries.
    And finally, in December 2006, Prime Minister al-Maliki 
ordered the Interior Ministry to exert control over the 155,000 
members of the facilities protection service. Now, this is an 
undisciplined collection of ministry guard forces that the 
Interior Minister has publicly accused of engaging in crime and 
sectarian violence. This is a major step, new responsibility 
for the Interior Ministry, but it can only take on this 
responsibility with new and invigorated U.S. support.
    These recommendations are within the capacity of the United 
States to undertake even under today's dire circumstances, and 
I recommend them for your consideration.
    Thank you very much.
    [The prepared statement of Mr. Perito can be found in the 
Appendix on page 56.]
    Mr. Meehan. Thank you very much.
    Ms. Oliker.

STATEMENT OF OLGA OLIKER, SENIOR INTERNATIONAL POLICY ANALYST, 
                        RAND CORPORATION

    Ms. Oliker. Thank you very much.
    Chairman Meehan, Ranking Member Akin, distinguished members 
of the subcommittee, I am very honored to be here today.
    I was asked to talk about the Iraqi Security Forces, their 
development, and what I thought I would also talk about a bit 
is this question of how can we tell how well they are doing and 
how much they are improving.
    There is a very useful and very simple formulation that a 
colleague of mine, Terrance Kelly, who spent a lot of time in 
Iraq, has put together on how can you tell what is going on 
with the Iraqi Security Forces, and what he says is it is a 
matter of quantity, how many of them not just are there total, 
but are there on the job and available to do the job; quality, 
what can they do; and loyalty, whom do they owe their 
allegiance to.
    The short answers to these three questions are that on 
quantity, no one knows; on quality, it is very limited; and on 
loyalty, it is severely fractured amongst sectarian groups, 
political factions, regions and individuals making up Iraq's 
polity. I am going to touch on each of these in turn.
    On quantity, Dr. Kagan mentioned a 135,000 number for the 
Ministry of Defense forces. That is a number that DOD can tell 
you the Coalition has trained and equipped. As several people 
have mentioned, Mr. Perito mentioned, in regards to the police, 
they know how many people they have trained and equipped.
    They have no idea how many of those have left or died. They 
do not know how many people are gone. About a quarter of police 
and military personnel are off at any given point in time, a 
lot of them taking their paychecks home to their families 
because, in the absence of a banking system, that is the only 
way the people get their money.
    There are also thousands of people serving in the Ministry 
of Interior the Coalition did not train, and there are 
thousands of people who work for the government but do not work 
for the Ministry of Defense or the Ministry of Interior, 
including the facilities protection service folks that Bob 
Perito just mentioned and also various agents of Iraq's 
intelligence services.
    All these people are armed, and they are variably trained.
    The Iraqi government also cannot tell you how many security 
forces they have. They might be able to tell you how many 
people they are paying possibly, but a large number of the 
people they are paying do not show up to work, and in regards 
to the local police, they are turning over bulk sums of money 
to local governments, and those are the ones who are paying 
people. So quantity we do not know.
    Quality: I think you have a sense of who the different 
forces are, right? There are the Minister of Defense forces, 
which is the Iraqi Army, 99 percent ground troops. There are 
the Ministry of Interior (MOI) forces which are, on the one 
hand, local police, community policing, and the national police 
built, as Mr. Perito said, of the commando units that 
preexisted, put them all together, try to put them under some 
sort of control, with a primarily counterinsurgency mission. 
And then there are all these other structures.
    Training varies: different times, different programs, 
different trainers. People who joined the Ministry of Defense 
through the Iraqi Civil Defense Corps that became the national 
guard mostly got on-the-job training. People who joined the 
Iraqi Army from the start got very formalized training. Most 
basic training is now being done by Iraqis.
    Most of the training for everyone has been, as Bob Perito 
said, military training, and this is a problem. Military 
training is a problem because when you are fighting an 
insurgency, policing makes the difference. Why does policing 
make a difference? Very simply, fighting insurgents is about 
winning over the populace. Policing is about protecting the 
public. Military operations are about fighting an enemy. If you 
want the public on your side, they have to feel protected.
    Equipment: Equipment varies too. It is not very good. The 
enemy is usually better armed. Most Iraqi force personnel have 
an AK-47 and a pistol. Most of their vehicles are not armored. 
Maintenance and repair have been a problem.
    There are two very good reasons the Coalition has been 
reluctant to provide heavier equipment. One is fear that it 
will disappear, and the other is fear that the government 
itself will use it to oppress people. These are valid fears. 
But the end result is that these folks are not very capable.
    The effort now is on improving coherence and maintenance, 
but the core problems are still there. They are going to 
continue to be there for a while.
    The mentoring program, which has been mentioned, is very 
important. It is important not just in improving these forces; 
it is also important in monitoring their capacity and seeing 
how well they are doing. But, again, most mentors, including 
for police, are military which creates problems for instilling 
policing culture.
    Military police are not the same thing as civilian police, 
so putting a lot of military police might be better than 
putting a lot of combat soldiers in, but it is still not the 
same thing as police forces. So it is not just a matter of 
getting more mentors out there. If this is really going to be 
successful, civilian mentors are going to have to somehow be 
found.
    A little bit on loyalty: The security forces, like Iraqi 
society, have been increasingly fragmented, also increasingly 
Shia. In units that used to be predominantly Sunni, structures 
like the Iraqi Armed Forces Officer Corps, the Sunnis are 
leaving. They are being forced out. There is a real effort 
under way by members of the government to cement control, and 
the result is that some people are being forced out, and some 
people are leaving while they think they can still leave.
    Infiltration by insurgents we have all heard about, high 
levels of the militia membership. Also, if people are not 
personally affiliated, they might be intimidated, threats to 
their family, into cooperation, or they may not be loyal to 
militia, but they might still not be loyal to the Iraqi armed 
forces. They might be loyal to regional, religious or political 
leaders, which is not a big problem if you are talking about 
the Iraqi local police forces; they should be loyal to the 
community. It is a problem if you are talking about forces you 
are deploying outside of their neighborhoods.
    The problem of sectarianism is a problem of the Iraqi 
political system, as Dr. Cordesman pointed out. Senior 
officials reinforce sectarianism because they are hedging 
against the failure of this experiment. They want to make sure 
that if a unified Iraq does not happen, their factions have 
enough fighters and their rivals cannot take control. Of 
course, in addition to contributing to sectarianism, it 
contributes to corruption and lack of accountability.
    I want to put us in a broader context also. Iraqi Security 
Forces will never work without institutions to support and run 
them, and they will not work without a justice sector. The best 
police in the world--you can build democratic, accountable 
police, but if there are no prisons and courts, you have 
nothing to do with the criminals, and there are not, of course, 
judges or prisons in Iraq and existing prison facilities, 
including ones run by the NLG and the MLI, so under the purview 
of this subcommittee, have been very credibly accused of 
abuses, and coalition personnel have had trouble getting access 
to them.
    If Iraqis are taking their future seriously as a unified 
state, they have to develop vetting and investigative capacity 
as well as being helped to develop a judicial system. They need 
to work to ensure loyalty of the security forces to the state, 
not to its components. They need to investigate malfeasance at 
senior levels.
    In the past when senior personnel have been found complicit 
in abuses, they were not fired; they were reassigned. So, when 
we see senior personnel with strong connections to the current 
political leadership brought to trial for abuses, we will know 
that something has changed. We have not seen that so far.
    In the meantime, as we have heard already today, we read 
about more and more units and regents transitioning to Iraqi 
control. Now, as you know, if you read between the lines or if 
you read the small print, when units transition, they are still 
very dependent on coalition personnel, logistics and capacity 
for pretty much everything they need to do.
    The fact is that while there are areas where the coalition 
has been able to reduce forces in operation, there is nowhere 
in Iraq right now where Iraqi forces can truly stand alone, 
provide security to the public in a way that is capable, 
responsible and that we can be confident does not foment 
conflict and distress rather than eliminating them.
    My written testimony has a bit of a wish list of the sorts 
of things we would want to know. I am not going to go through 
that. I would like to focus on some general issues of oversight 
in watching this process continue. If it is to be successful, 
it will have to continue for many, many years, but there are 
indicators we can look at to see what is going on. DOD has 
gotten better at providing some reporting, not just telling us 
about forces trained, but admitting to some of the challenges.
    For example, DOD rates Iraqi units in a number of 
categories. They will tell you a number of categories, but they 
will not tell you the results of the evaluations, and I am told 
by colleagues in Iraq that they will not tell their State 
Department colleagues in Iraq how they are evaluating them 
either.
    Published DOD readiness assessments of Iraqi units combines 
into a single number the units that can operate fully 
independently and those that can function in the lead with 
coalition support. We need to desegregate those numbers. We 
know they desegregate those numbers, and some of them are 
material.
    At its core, it is not about the numbers. I mean, there are 
numbers that you want to know. You want to know how the number 
of people you are paying stacks up to the number of people at 
work. You want to know to know about recruitment, retention, 
casualty, desertion rates.
    But, really, what you want to know is how are things going, 
and that is not about numbers. That is about asking people on 
the ground, U.S. and Iraqi personnel, the right questions, to 
find out if U.S. forces feel they have the tools to determine 
what their Iraqi counterparts can do, to find out if Iraqis 
feel that their forces can protect them and if they are right 
in feeling this way, to assess how secure innovation is 
affecting security, to track what happens when abuses are 
reported and whether those responsible are held accountable, to 
track development of oversight capability amongst the Iraqis.
    As the mentoring process continues, we want to hear if 
civilian mentors are being deployed and how they are doing. We 
will want to know what our national police can really 
transition into a more policing structure, which is what is 
being done now, or if that is not working at all. We will need 
to know about Coalition access to prison facilities. We also 
want to know what questions cannot be answered and why because 
that is data in and of itself.
    You know, it is not just a matter of getting reporting. You 
know, as we have learned, it is not how many forces are 
trained. It is what training have the people who are fighting 
gotten and how well are they doing. It is not how many tips are 
coming in from Iraqis. It is who is getting the tips--the 
Iraqis or the Coalition. How good are the tips? Are they coming 
when the violence is worse or when the violence is better?
    Development of Iraq's security structure and the Iraqi 
security sector as a whole is crucial to any hope of 
stabilizing the country in the long term. The forces they have 
now might possibly be able to function in a safe and secure 
Iraq. We do not have a safe and secure Iraq.
    Having a better understanding of what is and is not working 
will assist the U.S. in supporting programs that work and 
ending ones that do not, but effective assessments demand up-
to-date and accurate information, and that means asking the 
right questions. Good policy requires proper and adequate 
oversight. If we do not know what works, we are doomed to fail.
    Thank you.
    [The prepared statement of Ms. Oliker can be found in the 
Appendix on page 62.]
    Mr. Meehan. Thank you very much.
    Let me ask each of you. It seems from each of your 
testimony, your written statements and other writings that have 
been available to the committee that none of you necessarily 
think the president's goal of transferring primary security 
responsibilities to the Iraqis by January 2008 is realistic or 
even advisable in some cases.
    Would each of you briefly tell us what you think is the 
most significant obstacle to the Iraqi Security Forces being 
able to meet that time line?
    What is the most significant obstacle, particularly 
something that the Department of Defense could do or action it 
could take. Mr. Perito had some pretty specific 
recommendations, but I am interested if there is something that 
each of you think DOD should do, but primarily what is the most 
significant obstacle?
    Doctor.
    Dr. Cordesman. Congressman, I think the most significant 
obstacle, quite frankly, is the lack of meaningful political 
conciliation. We are not dealing with counterinsurgency; we are 
dealing with sectarian and ethnic conflict as the dominant 
source of problems in Iraq. That cannot be done by the way you 
restructure the military or the police force.
    Having said that, as my colleagues have said, there is a 
deep division between the readiness of the Army and the police 
force. The truth is that if you really want Army units to work 
you move them into the partnership and embed phase and you give 
them the time and practice to learn how to operate, to see who 
can lead, to shake out the people who will stay and not stay.
    Training and equipped is not necessarily meaningless, but 
it comes pretty close when you are creating an entire new 
force. One way that you do that is you focus on which 
battalions actually perform on unit capabilities and unit 
diaries, not meaningless statistics and bar graphs.
    On the police side, I do not, I think, agree with my 
colleagues simply because I think the level of ethnic and 
sectarian division has already reached the point where most 
regular police in the real world are going to be local, 
dictated by local authorities and subject to ethnic and 
sectarian divisions.
    The problem then is how do you live with that. One way is 
to provide as competent a national force to supplement them as 
possible. Another is to have local elections that are 
meaningful and to really see what you can do to fix this 
fragmented structure in a way that individual areas, cities and 
towns can justify.
    Here, let me just make a final point. For all the reporting 
that is provided in terms of these statistics, the fact is that 
there are very detailed maps of Iraq, down to the individual 
street and neighborhood which are sort of red, yellow and 
green, showing what the level of security is and when it comes 
down to police and other posts rating them as to their 
performance, whether they are a threat, whether they are seen 
as being part of the problem or part of the solution.
    We have the data on individual unit histories. The fact is 
that people simply are not providing it, and instead, they are 
providing the kind of numbers which I think we all agree are 
meaningless.
    Dr. Kagan. Mr. Chairman, the largest obstacle that we face 
in turning over responsibility to the Iraqis and leaving is the 
lack of security in the country, and that is the number one 
obstacle that is hindering most of the other positive progress 
that we would like to see made, including the progress, as Dr. 
Cordesman points out, which is so important in reconciliation.
    Even though there have been a number of promising steps in 
that regard, including the change in attitudes of the Al Anbar 
sheiks, of Prime Minister Maliki's visit to Ramadi and the 
recent announcement of an initiative from Maliki and President 
Talabani to reform the Debaathification rules which is an 
important component of reconciliation with the Sunnis. We have 
seen some of those steps begin even before we have actually 
managed to establish security in Baghdad, let alone throughout 
the country.
    So the number one priority has to be, in my view, bringing 
the level of violence in the country down to a point at which 
it is reasonable to start talking about normal policing because 
when you actually have violence of the sort that we have seen 
through the end of last year and continuing, even if 
diminishing, after the president's announced change of 
strategy, it is not the sort of environment in which you can 
hope to have local police policing effectively. We have to help 
the Iraqis bring it down, and that is number one.
    Number two is, if you ask the question what can we do to 
accelerate this hand-over, apart from accelerating efforts to 
establish security throughout the country, I would say that 
there is a limit to how much you can accelerate it. Militaries 
are not like race cars, especially when you are trying to 
develop them. You cannot just put your foot down on the gas and 
feed it more something and have----
    Mr. Meehan. So you do not think the president's January 
2008 timetable is realistic?
    Dr. Kagan. The timetable for what? If you say timetable for 
turning over responsibility for the security of the country to 
Iraqi----
    Mr. Meehan. Primary responsibility for security.
    Dr. Kagan. As I have argued previously and on my own 
recommendations, I thought that we were going to have to 
maintain levels of forces similar to what is being proposed now 
through the end of 2008, and only then did I think it would be 
possible to begin drawing down. So I am on record as not 
thinking that that is a realistic approach.
    But I think we have to understand that the challenges 
involved in moving the Iraqi Army forward are challenges that 
are going to take time. It simply does take time to develop 
military systems, logistics systems, standard operating 
procedures, to retrain officers, police and Army in how to do 
all of these things. There is simply a limit to how fast it is 
going to be possible to accelerate this.
    Mr. Meehan. Mr. Perito.
    Mr. Perito. Thank you, Mr. Chairman.
    The first thing we need to do is recognize that there is an 
essential difference between creating armies and training 
soldiers and creating police departments and training civilian 
police. The job of training a civilian police force is one of 
developing people who have an ethos which is different from a 
military ethos. As one colonel put it, soldiers are trained to 
kill people and break things. Civilian police are trained to 
preserve and protect. It is that ethos that we need to accept 
as the basis for training a civilian police force in Iraq.
    We then need to start by creating a Ministry of the 
Interior which functions and supports the police, and then we 
need to move to train and equip and authorize civilian police 
to perform civilian police functions. Since the beginning of 
the U.S. intervention in Iraq, there has been a massive crime 
wave that has swept that country. Much of the violence in that 
country is simply criminal activity. It is not politically 
motivated.
    To the extent that the Iraqi police are able to get control 
of crime and demonstrate to Iraqi civilians that they are there 
to protect them, then information will flow and the civilian 
police will be able to engage in a counterterrorism operation.
    The way to defeat terrorists is the way the British police 
defeat terrorists. You arrest them in there about at night when 
they are asleep, not when they are armed and out and ready to 
press the button on an explosive device. We do not have that in 
Iraq. We have not had it from the start.
    There has been a bifurcation in our training, which is 
focused on trying to create a civilian police, and the 
utilization of these forces which is used in counterinsurgency 
mode. We need to bring that to an end. We need to create a 
civilian police in Iraq that concentrates on fighting crime and 
protecting civilians.
    Mr. Meehan. Ms. Oliker, the most significant obstacle?
    Ms. Oliker. You know,it depends on what you are willing to 
settle for in transferring authority. If you are of the 
opinion, Mr. Chairman, members, that we cannot do this well, 
that Iraq is doomed to descend further and further into civil 
war and that what were doing is not having a real effect in 
stemming the tide, then, you know, you can leave now and Iraqi 
Security Forces are going to be part of the conflict. They are 
going to fight one another as they are doing now.
    If you think that it is possible to develop some level of 
stability and security, which, as Doctors Kagan and Cordesman 
have pointed out, you know, security is the first thing. If 
Iraq is to move forward, it has to first be made secure. The 
Iraqi Security Forces cannot do it. They will not be able to do 
it in a matter of months. They will not.
    Nobody will be able to do it unless Iraqi political groups 
have decided that violence is not the way out. As long as Iraqi 
political leaders feel that they want to maintain the capacity 
to use violence as a political tool, violence is going to 
continue.
    So the only way to end that is to make violence not as 
attractive to them, and the way to do that is to bring peace to 
Iraq. To be honest, the level of troops and the level of 
commitment that would require is not something that we have 
seen to date.
    So it is a bit of a catch 22, right? On the one hand, you 
can see ways that you could make it better, and then you could 
develop this security force that will take years to develop 
that can function in a steady state of peace, or you can leave 
and you can hope that eventually they get there on their own, 
but it is going to be a bloody getting there.
    Thank you.
    Mr. Meehan. Thank you.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    The first thing I would do would be to quote a diplomat 
from Egypt. He said, ``I did not support your going into Iraq, 
and I do not support your rapidly withdrawing from Iraq.'' He 
said, ``You might think that is being inconsistent, but,'' he 
said, ``I look at it as you started open-heart surgery, and now 
you have a sore back from leaning over the patient, but you 
cannot walk away and leave him.''
    So my first question is: Is there anybody here who is 
advising a quick withdrawal from Iraq? I have heard all of your 
testimonies. I think I have heard every one of you say that is 
a problem. Is that correct, that being the case?
    Mr. Perito. That is right.
    Mr. Akin. Second question, one of the things we did in the 
supplemental that really concerned me a lot was to cut funding 
for the Iraqi Security Forces. Let me put it in context to be 
fair. There were a number of provisions that were said. For 
instance, you have politicians. You have to put an oil deal 
together in six months, or we are going to cut your funding. 
That is something that I would have supported. They are talking 
about a constitutional amendment and a whole lot of very 
difficult things to do in six months.
    Would you use cutting forces for Iraqi Security Forces as 
leverage? Yes or no or make a comment.
    Dr. Cordesman. May I make a comment?
    I think something that bothers me both in Iraq and 
Afghanistan is the confusion between funding something and 
achieving something. What I cannot find is any trace between 
these requests for money and what they are actually supposed to 
impact on and the programs that are supposed to be implemented, 
and one of the things I would have said is I cannot tell you--
and nobody can--on the basis of the administration is requests 
whether that money is needed or not because no one has ever 
explained what is actually being done with it.
    Mr. Perito. I would like to comment as well.
    As long as there is a disconnect between the people that 
are passing through our training programs and the people that 
are actually showing up in the police force, then cutting off 
the funding or providing funding really has very little impact.
    If you read the Defense Department's report to Congress in 
March 2007, it says that there are large numbers of people that 
have been hired outside the system set up by the United States 
military to train and equip the police. We do not know who 
these people are. We do not know also what happened to the 
people that passed through our training programs, but there is 
a lot of anecdotal information that suggests that some people 
just went in, took the money, got the weapon, got the uniform, 
went out, sold it on the black market and went on their way.
    So I agree with Dr. Cordesman.
    Mr. Akin. So I think I heard both of you--now I do not want 
to put words in your mouth--saying there was so little 
accountability that there is no point in funding it anyway. It 
is just a waste of money to put any money in it, so do not fund 
it at all.
    Dr. Cordesman. I think we would all agree if you do not 
fund it, you are going to end up with this whole structure 
collapsing. What we are saying is--you asked should you have 
this at the same amount of money, cut it or increase it--I do 
not believe that anyone can answer that question because of the 
way we are looking at this problem.
    You put money into something to buy capabilities, and what 
we desperately need is not to reduce the money, but to 
establish accountability. Without accountability, all we can 
say is that if you reduce the money further or cut it off, of 
course, it will collapse.
    Mr. Akin. I guess that was my point. If you do not fund it, 
it is going to collapse.
    Dr. Kagan. Yes, I would agree with you, Congressman, and I 
would like to go further and answer the question that you 
asked, which was: Is it a good idea to use the threat of 
cutting off funding for the Iraqi Security Forces as a lever to 
try to force the Maliki government to do certain things within 
a certain time period?
    My answer to that is an unqualified no. That is a very, 
very bad idea for a number of reasons. First of all, of all of 
the levers that you might choose, threatening to cut off 
funding for the only force other than the American and British 
military in Iraq that might actually be able to maintain order, 
threatening to cut that off as a way of leverage, makes no 
sense to me.
    If you think that we are going to leave and anything other 
than complete chaos is going to ensue and if you think that we 
should leave quickly, then you surely have to make an argument 
that something other than complete chaos will ensure. Then, 
obviously, the Iraqi Security Forces are going to have to be a 
key component of that.
    So threatening to cut off funding makes no sense.
    But I would also like to speak to the larger issue of these 
specific political benchmarks. As the House of Representatives 
has found and especially as the Senate has found, meeting 
particular legislative benchmarks is not always an easy thing 
to do even when there is not a civil war going on outside, and 
I would be very reluctant to see specific funding tied to 
specific passage of specific legislation that we say has to 
look in a certain way, to tie that kind of legislative action 
to funding for such an essential organ as the Iraqi Security 
Forces. I think that would be extremely unwise.
    Ms. Oliker. Let me just comment on the question of 
leverage. One of the things we can learn from the development 
world is that you could have smart conditionality and you can 
have dumb conditionality, right? Dumb conditionality is ``We 
are going to cut your AIDS funding if you do not drive your 
defense budget.'' Smart conditionality is, ``If I cannot tell 
that you are doing a good thing with us, if I cannot tell that 
you are doing what you are supposed to do with this assistance, 
I am going to stop giving you this assistance.
    So I think the question is not putting conditions on the 
Iraqis; it is putting conditions on our own people to explain 
to us exactly how this money is being used, and that does not 
mean necessarily prove that it is all working, sometimes things 
do not always work, but it is about tracking and accountability 
and demonstrating that the money is being used right.
    Thank you.
    Mr. Akin. Yes, I guess my question was not about tracking 
and accountability. I think most people would agree to that. 
This set what seemed to me to be a very, very high political 
bar, not only just getting the oil thing done, which I would 
have even gone along with, but it also said you have to pass a 
constitutional amendment on some things, and it seemed in six 
months to be asking so much, and the only thing we are really 
hoping on, if there is any hope we have, it seems like it is 
Iraqi Security Forces and their ability to try to keep the lid 
on things.
    So I have a couple of things that are connected questions. 
I am going to call it an experiment. Maybe that is being 
pessimistic. I do not know. The Baghdad experiment of 
increasing troops and assigning them to neighborhoods and 
mixing the police and security and the U.S. forces--is that a 
good method of training question? That is the first part of the 
question.
    The second thing is: Is it a good measure of the success of 
the ISF? Is this a good metric to say that is how good the 
security forces are? And even the other way, is it something 
that is going to train the Iraqis, not only the police, but the 
security forces?
    So those two kind of go together as questions.
    Dr. Cordesman. I think one key problem we have is it is an 
experiment, and to find out what happens does take time. It is 
possible that if we do this properly and slowly, we are going 
to bring a lot of Iraqi elements online with real capability. 
Many of the units which have deployed down into Baghdad at this 
point do go along for the ride, but they certainly are not 
ready. The bulk of the police in Baghdad certainly is not 
ready. It basically is, to put it politely, not only a garrison 
force; it sometimes has trouble even getting to the police 
station.
    Mr. Akin. That is sort of the question, though. Is it a 
good way to train them, one, and two, if it works well, is that 
some measure of the fact that they are effective?
    Dr. Cordesman. Congressman, you can assert everything you 
want and anything you want, and the only way to find out, since 
we are committed to doing it, is to do it. My guess is, with 
the police, we are going to have to edge around them, avoid 
being committed to using the police, take a lot of time and 
find out whether security emerges in a way where then we can 
deal with the police elements.
    Experience will train Iraqi Army units if they are not 
somehow involved in ethnic and sectarian fighting on a broader 
level. So far, they have avoided that. But to give this, I 
think, more than experimental status, to judge it now, to rush 
into saying it is good or bad to me is far more a matter of 
ideology than substance.
    Mr. Akin. I guess my point was, you know, we talked to the 
generals over there. They said, ``do not even make any 
assumptions about whether this is working well or not until 
this summer.'' They said, ``We are not going to have everything 
in place and up and working until June or July.''
    So I am talking about in the June or July timeframe, one, 
does it work to help train? Is it a good training mechanism to 
actually do what you are supposed to be doing? And second, is 
it a good measure?
    Let us go right down the panel. I did not really hear an 
answer to my question. That is why I was trying to get to the 
point.
    Dr. Kagan. Congressman, I think that the short answers are 
yes and yes. It is a good way to train, and we are in the 
process of helping the Iraqis or we have actually helped the 
Iraqis to develop a system of rotating the units in their Army 
through participation in the Baghdad security plan in part as a 
method of training them, and I have long been of the opinion, 
something which Dr. Cordesman said, that you can train and 
train and train in garrison, but the way that you really train 
a unit, especially in this context is by actually putting it 
out on the street, having it conduct real operations, but 
having it conduct them in tandem with outstanding excellent 
forces so that it can see what excellence is and also so that 
there will be a check on its behavior.
    One of the reasons why you are tending not to see Iraqi 
Army units and Iraqi police units in Baghdad now participating 
directly in death squad activity is because American forces are 
present with them, and we have seen this repeatedly. They do 
not tend to do those things when we are there. Ultimately, were 
going to have to get to the point where they do not do those 
things even when we are not there, but that is something that 
is going to take a matter of time and it is also part----
    Mr. Akin. Thank you. I think you answered my question. It 
is a means of training, and you think it is a way to measure 
progress when we give it enough time.
    Dr. Kagan. When we have given is enough time, yes, it will 
be a way to measure progress.
    Mr. Akin. Right. Okay.
    Either of the others?
    Mr. Perito. Yes, it is not an effective way to train 
police. The police ``units'' that are engaged in Baghdad are 
these commando-style units that are part of the Iraqi National 
Police. These are not police as we understand police. These are 
former soldiers who are engaged in a counterinsurgency mission 
who have been given a light in a motif of counterinsurgency 
training. There is nothing going on here that impacts on 
civilian police that are there to protect Iraqis and to fight 
crime. That is out of the----
    Mr. Akin. I guess my question was mostly geared to the 
security forces. I agree. You know the police is kind of a 
different can of worms.
    Mr. Perito. Yes. Police are different, and----
    Mr. Akin. You brought up a great point, and that is so the 
police do their job, they put somebody in the slammer, and now 
we have no judicial system to process them. So the police is a 
little different. I was mostly talking about the security 
forces.
    Mr. Perito. Okay.
    Mr. Akin. Anything else on security forces?
    Ms. Oliker. The one thing I would say is these guys have 
been getting on-the-job training all along. You know, they get 
a bit more of it in Baghdad. You know, it depends. It depends 
on what they end up doing. Right now, you know, we have had a 
surge of U.S. forces operating without Iraqis, which means that 
they are not coming along.
    You know, the answer to your question is it depends. It 
depends on how it is done, it depends on how the Iraqis are 
integrated, and then, as Dr. Cordesman pointed out, we are 
going to have to see if it actually works. So there is no clear 
answer yet.
    Mr. Akin. But that is my question. If it actually works, is 
that a measure of the security forces doing a good job?
    Ms. Oliker. If it works in the sense that some of the 
security forces that you have put out in Baghdad become more 
effective as a result of their training, those individual units 
will be more effective. What does that do for the rest of the 
forces, of course, as a whole? We do not know, and unless they 
actually are not just more capable in the sense of being able 
to go out and shoot somebody, but are, as has been said, 
capable of operating on their own in a way that secures the 
population of Iraq and does not threaten it, then they are more 
effective. But I have no way of knowing if this is going to 
help with it.
    Mr. Akin. Yes. I do not know it if it is going to work or 
not. My question is, if it reduces violence, is that a good 
metric to say we are making progress. That was all.
    Thank you.
    Thank you, Mr. Chairman.
    Mr. Meehan. Thank you.
    Ms. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Since the spring of 2003, when the Coalition Provisional 
Authority took over, the government was decapitated, Saddam 
Hussein was captured and we began to stabilize Iraq--it is 
still a failing proposition, by the way--I have been fascinated 
by everyone's general acceptance that the metric for success 
would be the establishment of security and the excuse being 
that the reason why we cannot do anything else is because there 
is no security in Iraq.
    I think that generally people have said the antecedent 
issue to progress any further, whether it is about the 
sovereignty of the government, the ability for the Iraqis to 
have representative governments, moving forward, stability in 
the region, extrication of American troops, stop spending our 
money, it has been about security, security, security, 
security.
    Well, I guess the question really is: How are we going to 
get security? Would you say that that is fair, Dr. Cordesman?
    Dr. Cordesman. I do not, no. I think that, frankly, 
security is important, but if you cannot get conciliation----
    Ms. Tauscher. There you go. That is what I wanted you to 
say.
    Dr. Cordesman [continuing]. Between factions here and you 
cannot bring these two things together----
    Ms. Tauscher. Thank you. The question then is: Are we going 
to fight our way to security, which apparently is the Bush 
Administration's way of doing it, or are we going to persuade 
our way to security? My concern is that we have our foot down 
on the pedal of fighting our way to security, and all we have 
done is find ways to excuse away for the now permanent Iraqi 
government for over a year to not deliver on the political 
reconciliation and negotiations to cut the insurgency in half.
    Would you agree, Dr. Cordesman, that if the insurgency in 
the classical sense was cut in half, it would be a lot easier 
for the Iraqis to take over the security of their country by 
January of 2008?
    Dr. Cordesman. At this point, no, I do not. I think we have 
reached a level of factional and ethnic fighting where the 
insurgents, important as they are, too serious a problem. That 
definition says that if you cannot really achieve very tangible 
progress--and I have to say in fairness to the Administration 
that they do have an eight-point program for conciliation--if 
you cannot move in these areas, security does not solve the 
problem.
    Ms. Tauscher. But in order to get security, one of the 
opportunities has always been for the Iraqis to do the kinds of 
political reconciliation that would cause significant portions 
of the insurgent groups that are indigenous to put down their 
arms and go to work as opposed to fighting.
    Dr. Cordesman. You know, my first trip to Iraq was in 1971. 
I really have to say that, very quickly, we created an 
electoral system that divided them by ethnicity and by sect. We 
insisted on a written constitution, which forced every possible 
issue. The way you phrased that, it is somehow incumbent on the 
Iraqis to solve the problems which in many ways we created and 
where they were elected to be ethnic and sectarian, and we 
cannot make those changes between now and the beginning of 
2008.
    Ms. Tauscher. So I do not disagree with you, by the way, 
that almost every problem that we have in Iraq right now is by 
our own making, and my concern is--and I think why many of us 
are insisting upon benchmarks for the Iraqi government to 
perform--is that we find ourselves with only two choices, 
fighting our way to security, which puts two huge American 
assets, our fighting men and women and money, on the table for 
an open-ended engagement with a blank check or persuading and 
having at least some sense that the Iraqis are stepping up and 
making the political negotiations and conciliations necessary 
to perhaps take some of their own future in their hands and to 
make the tough decisions necessary.
    I think that, you know, many of us are just at our wits 
end. We do not know how to get the Iraqi government, which I 
consider to be feckless, to step up and do the things that they 
are meant to do, and if I do not know why they are not doing 
it, what would cause anybody wearing an Iraqi military uniform 
to want to fight and die for them?
    In the end, this military that we are growing with a lot of 
American effort and a lot of American money has to make a 
decision that they are going to fight and die for this 
government, and I do not see anything about this governments 
that would cause Iraqis to make that risk. So, you know, for 
too long, we have had a situation where it has been about 
security, we have had to deliver security, and we are going to 
fight to get security.
    Then the excuse was, well, we have to have indigenous Iraqi 
forces, so now we are going to spend a lot of time and money 
recruiting and training those forces.
    Then we were promised that we had reached the ultimate 
number that we needed, and then we were told that the number we 
needed was the right number, but, as Ms. Oliker has pointed 
out, they do not stay and fight, they do not stay in the 
military they have a very high regressive rate, so we do not 
actually have the quality we need.
    I do not know what the next series of excuses are going to 
be, but I promise you somebody is going to think of them, and 
our challenge is: How do we stop spending our two primary 
assets, American fighting men and women and our money, on what 
is clearly a failing preposition?
    I do not know of anybody, frankly, that is advocating that 
we leave immediately. We are going into our fifth year.
    My final question really is: What do you think it is going 
to take to get the Iraqi government to make the political 
conciliations and negotiations that you recommended, Dr. 
Cordesman?
    Dr. Cordesman. I think it is going to take time, patience 
and constant pressure. I think it is going to take the 
understanding that even if we can get them to agree to these 
benchmarks--for example, Dr. Kagan mentioned the 
Debaathification law--I do not want to use the phrase ``so 
what,'' but it is to present a concept to the parliament 
without the detailed annexes.
    If the parliament passes the law, you then have to 
implement it. You have to hope that Debaathification occurs 
faster than Sunnis who are not Baathists are actually pushed 
out or marginalized. To do that, you have to watch what is 
actually happening.
    To make this process work, we are talking 12 to 18 months, 
and that is virtually every major area of conciliation. I wish 
I could say to you that you could do any of this quickly, that 
you could force these people into something that would actually 
accomplish it. I think all you can do is give them impossible 
deadlines, and we will either end up having to leave a 
sectarian and ethnic mess behind or we will have to stay, 
having rushed something we did not succeed in.
    Ms. Tauscher. Anybody else have comments?
    Dr. Kagan. Yes, I would like to comment on that.
    I am not sure why some people are very determined not to 
see any of the progress that is actually being made in this 
area as being of significance. I think that the Sunni Arab 
insurgency continues to be very important. The continued al 
Qaeda attacks, for which, by the way, we are not responsible, 
has been an element of this equation that was the critical 
factor in kicking off the sectarian violence to begin with, and 
that came about as the result of deliberate al Qaeda strategy.
    We certainly did not do what we needed to do to prevent 
that from happening, but it was the enemy's initiative that led 
to that in the first place.
    Mr. Meehan. Dr. Kagan, but would not you agree that the 
unrealistic expectations set by the Administration certainly 
has contributed to this? I mean, we were in the last throes of 
the insurgency 3-1/2 years ago. The war was going to last a few 
months. I mean, it was the Administration themselves that set 
up totally unrealistic expectations.
    Dr. Kagan. Mr. Chairman, I agree with you, and I have been 
consistently critical of the way the Administration has been 
fighting this war right up until the change in strategy, and I 
agree that this Administration raised expectations 
unreasonably, and we have gone through a series of these, yes 
we are just about there we are just about there routines.
    One of the things that we have not done before is to give 
the U.S. military forces in Iraq the primary mission of 
establishing security. That has never been the primary mission 
of U.S. military forces in Iraq prior to this change in 
strategy. The mission has always been train and transition, and 
that has powerfully affected the effect that we have not gone 
far enough to establish security.
    But I did want to point out that not every bad thing that 
is going on in Iraq is our fault. There is an enemy out there 
that is trying to make us fail.
    Ms. Tauscher. You are suggesting the fact that when we 
decapitated the government, we had no plan to secure the 
contrary, no plan to close the borders and that when we let al 
Qaeda in, because they had not been there before under her 
Saddam, that is not our fault?
    Dr. Kagan. The attacks that al Qaeda has staged are al 
Qaeda's fault. I have been very critical of the mistakes that 
we have made.
    Ms. Tauscher. How did al Qaeda get into Iraq?
    Dr. Kagan. There were some al Qaeda in Iraq before, and 
then they flowed in afterwards. I have been very critical of 
this strategy all along, but the bombing that took place at the 
Samara Mosque was done by al Qaeda.
    We may not have done everything possible and everything 
appropriate--and I said that we did not do everything 
appropriate--to prevent that from happening, but at the end of 
the day, we must recognize that there is an enemy out there 
that is trying to make us fail and is trying to kill innocent 
people, and I really do not think it is appropriate for us to 
take full responsibility for the enemy's actions.
    Mr. Meehan. But, sir, even the president has admitted this 
idea of bring it on, to all the terrorists in the world, bring 
it on. Even he has admitted that that probably was not a very 
smart thing.
    Dr. Kagan. It was not a smart thing.
    Mr. Meehan. And they brought it on.
    Dr. Kagan. They did, but they were the ones who placed the 
bomb, and all I am asking is that we recognize that there is an 
enemy that bears responsibility for that.
    Ms. Tauscher. Dr. Kagan, we have to take responsibility for 
the fact that al Qaeda is in Iraq. You know, maybe al Qaeda ate 
your homework, but I am telling you right now that you are 
conflating the enemy to be al Qaeda when 8 out of 10 fighters 
are Iraqis fighting Iraqis and the idea that we now have and 
consistently for 3-\1/2\ years have had American fighting men 
and women in the middle of a sectarian war that even the 
Pentagon now calls a civil war.
    A small faction of them that may be doing bigger things is 
al Qaeda that were allowed in the country because we did not 
close the borders, because we did not have a plan and we had no 
bloody idea what was going to happen when we decapitated that 
government. We were not ready for it, and you are conflating al 
Qaeda to be the enemy. The enemy is elusive in Iraq right now, 
and we are in the middle of it.
    Dr. Kagan. Congresswoman, I agree with you that there are 
multiple enemies in Iraq, and it is a very complicated 
situation. I did not mean to say that al Qaeda is the only 
enemy that we face, nor do I mean to exculpate the Bush 
administration from any of the mistakes that it has made in the 
way that this war was handled from the outset. I was 
criticizing the way people were talking about fighting this war 
before we even went into Iraq.
    Believe me, I agree with you that we have not handled the 
situation properly after 2003 or going into 2003. I am in total 
agreement with you that we have not handled the situation 
properly. All I was trying to say is that I think it is a 
little bit strong to say that every bad thing that is going on 
in Iraq is our fault.
    Ms. Tauscher. Well, it may be a little strong to say, but 
let me tell you this right now. The next time I do something 
wrong, I would like to have you be the guy that is criticizing 
me because you sound a little like an apologist for the Bush 
administration to me.
    I yield back my time.
    Mr. Meehan. Ms. Davis
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    I think that we all recognize that with proper planning 
perhaps, we certainly must have anticipated that al Qaeda would 
move from Afghanistan or wherever it was into Iraq. So we had 
to be planning for that possibility, and that is part of the 
problem that we face today.
    I think it is so much of our concern is that we cannot be 
apologetic for multiple mistakes. I mean, there is a point at 
which we have to say that there needs to be a better way to do 
this, and I actually appreciate today that I think we are 
trying to move in that direction.
    I had an opportunity to go to Fort Riley a few days ago and 
to visit with our troops who were training to embed there or 
have returned, and there are some good stories. However, we are 
just beginning now to understand the sensitivities in trying to 
help develop the forces, be they Army or be they police, and I 
think that had we done that a number of years ago, hopefully, 
we would not have been having the same kind of discussion 
today.
    Would you agree with that, I mean that had we done some of 
the things that we have all talked about are important in terms 
of development of our own sensitivities in working with the 
Iraqis that perhaps we would not be in this position or perhaps 
we would be, no matter what we would have done in the past?
    Dr. Kagan. I agree with that. I think that if we had 
focused on establishing security from the outset, we would be 
in a much better place. I have said that, as I said, before the 
war started, and I have been consistently critical of the 
failure to try to do that all along.
    I agree with you that if we had not made many of the 
mistakes, many of which were foreseeable and many of which many 
of us--or some of us anyway--at this table criticized at the 
time, then we would be in a better place. I absolutely agree 
with that.
    Ms. Davis of California. I wanted to go on to Ms. Oliker. 
One of the statements here was you are trying to kind of look 
at the capacity of the Iraqi Army and what that means as 
opposed to numbers that we should be looking at, and the 
question arises about Iraqi public opinion of security force 
capacity, of government capacity, local safety and the 
prospects for the future. How do they correlate with these 
developments?
    I wonder if you all could comment on that a little bit. Are 
we seeing some correlation? Is it too early to see that 
correlation? What roles do the Arabic media play in that as 
well? Are there parts of that that we can counter, or are we 
just, you know, really at the mercy essentially of public 
opinion as it is overwhelmed by the media there?
    Dr. Cordesman. I think that is, Congressman, one of the 
things that really we have to be careful about. The polls we 
often take--and I have worked very closely on one the ABC, BBC, 
Germans and USA Today did--deal with these in terms of national 
averages. When you break them down by town or area, you find 
Iraqis are not being shaped by the media. Iraqis are being 
shaped by their day-to-day contact with violence, with the 
security they feel.
    There is not a nation of attitudes. Attitudes are extremely 
local. In Baghdad, you can break them down in districts. In 
divided cities, it depends really who is in control, whether 
you are the Sunni or the Shiite. When you look at this in the 
12 major cities that the U.S. military monitors, what you find 
is this: Iraqis see the outside threat, but they rank us--that 
is the Coalition and the U.S., the Iraqi Army and the Iraqi 
police--in conflict areas as major areas of threat.
    You will find the poll reflected in the testimony that I 
provided. You will see this varies by whether it is Sunni or 
Shiite and whether it is a conflict area. The Kurds do not see 
this problem. So blaming this on the Arab media or television 
or people outside Iraq is something which survey after survey--
there is an LRB survey which draws the same conclusions, and 
there are others--simply is not realistic. That is not how 
Iraqi public opinion is being shaped.
    Mr. Perito. I would agree with that.
    Ms. Oliker. I would agree with that. I would add to that 
one measure of Iraqi public opinion which is not polling, and 
that is the thousands of people fleeing Iraq day after day 
after day. I mean, these people are not fleeing because they 
read in the newspaper or see on television that their country 
is unsafe. They are doing it because they know that they 
personally are not safe, and they are trying to get out.
    Mr. Perito. The subversion of the Iraqi Security Forces, 
particularly the subversion of the Iraqi National Police, is a 
tremendous problem, and Iraqis know this.
    The U.S. military tried something in October, just to share 
a story with you. The accusations had been made that men in 
uniform going about carrying out sectarian violence were 
actually people who had stolen police uniforms. So the United 
States introduced a new police uniform based on a digital 
pattern, very difficult to copy.
    Ms. Davis of California. Yes, I saw that.
    Mr. Perito. I have a friend who is an adviser in Iraq. 
There was an incident in which armed men in police uniforms 
went in and seized people out of the ministry of the higher 
education. I emailed my friend and said, ``Well, it is very 
good that we have these new police uniforms because we will 
know whether these people are real or not.'' The email came 
back, ``They were wearing the new police uniforms.''
    So, you know, it is not the Iraqi media. The Iraqis know 
what they see, and this is a terrible problem we have to deal 
with.
    Dr. Cordesman. If I may, Congressman, just give you a 
tangible set of statistics, and these are a poll completed in 
February, and the sample was statistically relevant, and it was 
direct sampling, not the use of the Internet or phones.
    If you take out the Kurdish area, which does like us, 47 
percent of the Iraqis perceived unnecessary violence by us, 32 
percent perceived it by the local militias, 22 percent by the 
Iraqi police and 22 percent by the Iraqi Army.
    Now, these are not fair. We are seen as occupiers, we are 
seen as crusaders simply because we are not Iraqis. It is not 
an objective view, but those kinds of public opinion polls have 
been, I think, fairly consistent, and we are not at this point 
going to change it by having better television programs.
    Ms. Davis of California. Thank you. I appreciate your 
speaking to that because I think that, you know, there is a lot 
of effort being put here to change that.
    I would think as well that Iraqis, like all of us, would be 
persuaded by the here and now on what they are perceiving to be 
their security, and I think my question has been all along what 
would it take--and you have answered this to a certain extent--
to give Iraqis the confidence in their own government to move 
forward with their lives and to actively participate in trying 
to change the situation on the ground? That is what we have to 
deal with.
    Mr. Meehan. Thank you, Mrs. Davis.
    It has been the policy, because we are an oversight and 
investigation subcommittee, to have subcommittee staff ask 
questions, but before we go to our subcommittee staff, I want 
to give Mr. Akin, the ranking member, an opportunity for 
follow-up.
    Mr. Akin. Thank you, Mr. Chairman.
    I have just one quick follow-up question, but I would like 
to say, first of all, I realize that you all volunteered to 
come in and share your time and your thoughts with us. I 
appreciate that and your attitude and tone of trying to solve 
problems and be candid and kind of work through what is a dicey 
situation for all of us.
    Dr. Kagan, I think that maybe you were accused of being a 
Bush apologist or whatever, and I do not feel that way. I am an 
engineer by trade. They do not let many of us in this place, 
but I appreciate just a straight problem-solving approach and 
let us move forward as Americans.
    I think you have all contributed, and so I wanted to thank 
you for that.
    What I am going to ask is what I think of in a way as the 
old Harvard Business School question, and what that was was, if 
you had one thing--you are all of a sudden now president for 
the day or whatever--you are going to change, you only get one 
wish, where would you put your focus? What is the most 
important thing that you would focus on in trying to put things 
back on track or get out if there is no way to do that, but 
whatever it would be?
    I will say that from the considerable testimony I have 
heard--and I do not want to prejudice your thoughts--my 
impression has been that the military component, that we have 
done a better job managing that, and the civilian component, 
such as establishing a justice system, wire transfer of money, 
proper electrical power, the running of the oil, the civilian 
stuff seems to me to have fallen through the cracks. While the 
military has been not well-managed necessarily, certainly, we 
are better equipped to send an army over to do the military 
piece. But we have not much in the civilian.
    So that would have been my guess, but I wanted to give all 
four of you just a chance, if you would fairly quickly, ``This 
would be my one wish'' or ``This is where I would focus.''
    Thank you.
    Dr. Cordesman. Congressman, I would say very simply, I 
would tell you and the American people that we are going to 
have to take three to five years to make this work. It is not 
just security, but it is not just conciliation and it has to be 
a coherent program with some kind of bipartisan support. One of 
the worst things you can say is we can have a 12-month 
turnaround based on one parameter.
    To go back to your Harvard Business School model, there are 
an awful lot of ways you can go out of business, and one of 
them seems to be promising success.
    Mr. Akin. Well, I could not agree with you more on that.
    Yes? Dr. Kagan?
    Dr. Kagan. I agree with that. If I could do one thing, 
apart from establish security tomorrow, which is impossible, I 
would like to see the development of an overarching strategy 
that has bipartisan support, that he has as its focus 
establishing security in the country, helping the Iraqis move 
toward reconciliation, helping them build ministerial capacity, 
getting American civilian agencies actively involved in all of 
that process, but have an overarching strategy that brings all 
of these things together with the right focus.
    Mr. Akin. Thank you. I could not agree more with that, too. 
Thank you.
    Mr. Perito. Yes, building on what has been said before, I 
would do those two things, and then the third thing I would do 
would be to develop a comprehensive strategy toward 
implementing the rule of law in Iraq. We have been talking a 
lot about police, but, as has been said before, without a 
functioning judicial system and an effective corrections 
facility and capability, we go nowhere and so all of this is 
essential.
    Ms. Oliker. Security first, but also accountability. We 
need to have a better understanding of what it is we are trying 
to do and whether or not it is working. I think we have not 
spent enough time thinking about whether what we are doing 
works or whether it does not and how we measure that, and I 
think we need to get better at it.
    Mr. Akin. Well, if I were their Harvard B School professor, 
I would give you all A's.
    Thank you very much, gentlemen and gentlelady.
    Mr. Meehan. Now, I would like to turn it over to Dr. Lorry 
Fenner who is our lead subcommittee staff for questions.
    Dr. Fenner. Thank you very much, Mr. Chairman.
    I have a longer question, but I want to ask you a very 
short question first, following on to this question by our 
ranking member, Mr. Akin, and that is have any of you in your 
research or interviews of anyone in the government heard anyone 
talking about a plan other than transferring responsibility for 
security to the Iraqis in January 2008; in other words, a plan 
B?
    You do not have to mention any names, but has anybody heard 
of a plan not to do that since you uniformly seemed not to 
believe that that is possible?
    Mr. Perito. Yes.
    Dr. Fenner. Okay. Thank you.
    Dr. Kagan. You mean a plan other than the strategy that is 
currently under way?
    Dr. Fenner. The strategy to turn over primary security 
responsibility to the Iraqis in January of 2008.
    Dr. Kagan. That is not the basis on which I have usually 
had discussions with people, so I am not quite sure how to 
answer the question.
    Dr. Fenner. That is what is stated in the president's 
message now.
    Dr. Kagan. No.
    Ms. Oliker. I think that there are different 
interpretations of transferring primary responsibility. I think 
that in the sense of actually turning it over to the Iraqis, 
most people that I talk to do not think that actually going to 
happen. I think they think we are going to continue working 
with them, and we might transfer primary responsibility the way 
that we, you know, call units in the lead.
    Dr. Fenner. Thank you.
    My real question is actually--most of us have recognized 
what most of you have, and that is that the measurement of 
capability is not really in the number sets that we are usually 
given--have any of you lately been to Iraq, and whether you 
have or not, have you either there or here been able to talk to 
working-level members of the military transition teams, the 
police transition teams or the border transition teams?
    Mr. Perito, you mentioned that you had recently talked to a 
friend of yours who was an adviser.
    So, any of the others of you, have you recently been to 
Iraq and talked to that working level, or have you talked to 
them here and how has that informed your work?
    Dr. Cordesman, please.
    Dr. Cordesman. Well, I have talked to them. I have not very 
recently been to Iraq. I have been to the Gulf and met with 
people there, and, certainly, I meet with many people here.
    I think there is another question you probably need to ask, 
which is to what extent does the U.S. intelligence community 
actually monitor the activities of many of these so-called blue 
forces on the ground--they may not be all that blue--and how do 
they assess them in terms of actual capability and capacity? To 
what extent have they mapped these issues?
    The one thing that sometimes gets lost here is the 
operational groups in the U.S. military have to break down 
these forces and look at them as both allies and potential 
threats. So I think the level of sophisticated analysis of 
actual unit capability goes far beyond the advisory teams.
    If you are talking about capability, I think that is a key 
issue because, for example, I think you would find that there 
are detailed, almost battalion-level diaries of how individual 
elements operate, that people do know how the police in each 
district in broad terms operate, that nobody has a mystery as 
to who the police really are in places like Basra, the major 
city in the southeast.
    But what people do not like is talking about it because not 
so much we are failing, but it does have a level of challenging 
time and resources which people fear we are not prepared to 
commit.
    Dr. Fenner. Thank you.
    Dr. Kagan.
    Dr. Kagan. Yes, I have spoken on a number of occasions to 
various different people. I have not been there recently. I am, 
in fact, going to depart shortly for a trip that will bring me 
to Iraq next week.
    I have been speaking with people who have been involved in 
the training effort, primarily of the Iraqi Army, at various 
levels, and it has informed my work.
    Mr. Perito. Two years ago, I ran a lessons learned project 
at the U.S. Institute of Peace (USIP) in which we interviewed 
about 130 people who had served in the Coalition Provisional 
Authority. We did in-depth two-hour interviews, and the 
transcript of those interviews are on the USIP web site, so if 
you want to read what the first-hand experiences of these 
people were, they are there.
    I just want to comment on the way in which the military 
authorities in Iraq have taken a quantitative approach to their 
work. You know, we are told that there are 135,000 Iraqi police 
that have been trained, but when you look at that number, you 
will find that 40,000 of those actually went through a training 
program that was a three-week orientation program taught in 
Iraqi police stations by U.S. military police.
    If you look at the content of that training, it was not 
really training at all. It was sort of an orientation to what 
is the role of police in a democratic society and a kind of 
getting-to-know-you exercise, and so, you know, when you talk 
to the people, the police advisers that actually had to conduct 
that training, they will tell you that that really was not 
training at all.
    So you really have to look past the numbers.
    Ms. Oliker. I was one of those people interviewed by USIP 
for that study, but I think my transcript is not online for a 
number of reasons.
    I have not been back to Iraq in over two years. I do talk a 
lot to people there, people who have recently returned and to 
Iraqis.
    One thing I have to say that I do not know has been said 
is, when people do speak frankly with me, when people who know 
me talk to me, it is astounding how pessimistic assessments are 
these days and just how little hope and how little expectation 
for things to improve there is.
    Mr. Meehan. Now, Roger Zakheim, one of our staff counsel.
    Roger.
    Mr. Zakheim. Thank you, Mr. Chairman.
    Through all the work I think the subcommittee has done in 
the past month, when we talk about ISF, the focus tends to be 
on the Ministry of Defense. So my question really wants to 
focus you on the Ministry of Interior and get your thoughts on 
a couple of issues.
    First--and this has come up indirectly in the hearing 
today--the police transition teams, particularly the transition 
teams for the local police: There was a recommendation made 
that maybe the Justice Department should take over that 
mission. Can you identify deficiencies in terms of the current 
training that goes on? I know it is basically the military 
police that carry that out, and then I guess it is contracted 
out as well. That is the first part, but that falls within MOI.
    There are a few other issues we can touch on and maybe go 
through all the witnesses: Assessing the capacity of the 
ministry, MOI. How do we assess that? The transition readiness 
assessments, you know, seems to be the critical assessment 
piece to look at when we are talking about unit capability. We 
met with some troops from Fort Riley who are the ones who write 
for the majors and the lieutenant colonels. There was objective 
piece, subjective piece.
    Is that the way to go about it, and, you know, should we 
add the track, change it, and should we believe them? I guess 
there was a comment earlier that maybe, you know, those 
assessments maybe should not be considered. Are we using them 
correctly?
    And then the detainee policy falls into the ministry of 
interior as well. The people that we are picking up and 
detaining, are they the right people? Are we not picking up 
enough people? I understand that we do not have enough capacity 
to really have an effective local police unit.
    So those are kind of the issues I see associated with the 
Ministry of Interior, and if you could comment on those issues, 
that would be valuable.
    Thank you.
    Dr. Cordesman. Let me just begin. I think the Ministry of 
Interior still is a very serious problem area. It says it in 
the March quarterly report. My own discussions with people who 
have been involved with it find that the problems are 
considerably more serious than that quarterly report presents, 
and if you read through this section on the ministry, it is not 
reassuring.
    I think in terms of the training teams, I would have to 
issue a caution here. One thing we do not have, as was pointed 
out by Mr. Perito, is a map of the people in the police who are 
not the ones we have trained and equipped, who are not 
national. Those are in most of Iraq the actual police.
    One of the problems we really have is, if you are going to 
talk about the this, you have to talk about police versus 
militias versus police because we really have three different 
groups here.
    I think in general, the problem is the police training 
system is not putting people into the field capable of doing 
much more than sitting in a police station.
    Your third issue, transition readiness assessments, I think 
the problem is, in some areas, it is like a kaleidoscope. We 
are transferring readiness in areas where there are very good 
units, with very bad units, with very different levels of 
threat, with mixes of insurgency, ethnic, sectarian conflict, 
and we are acting is that if there was some ordered system for 
doing that.
    Yet I think Michael Gordon, to give an unclassified 
example, published a map in The New York Times. The color 
version shows that in most of these areas where we claim to 
have transferred responsibility, there really was nothing 
approaching any kind of symmetry or match between what had been 
claimed and what was occurring.
    On detainees, I think it is become apparent again just in 
the last week this is a major problem, perhaps the first one to 
surface in the Baghdad operation. We have not made the 
transition, we cannot trust the Iraqi MOI to handle it, but we 
do not have the facilities all of a sudden to handle the people 
we have already taken in Baghdad.
    So this is not simply them; it is us as well.
    Dr. Kagan. I will tell you to begin with that my focus has 
been more on the Iraqi Army and the MOD, and so I will make 
just a brief comment.
    First of all, it is my understanding, certainly going into 
this plan, there was an understanding that detainee facilities 
and capabilities were inadequate, and measures are being taken 
to address the problem. Clearly, it has not been fully 
addressed yet.
    In the Ministry of Interior, I would note that there were 
recently 3,000 people who were let go from that ministry. There 
clearly is an effort under way on the part of the Prime 
Minister to work through the problem of militia infiltration.
    Of that organization, I would point back to the firing of 
the Deputy Health Minister who was also actively involved, a 
little bit outside the scope of your question, but still 
relevant.
    So there clearly is some growing political will on the part 
of the Maliki government to address what I regard as one of the 
most serious problems that we face in the ministry of the 
interior, which is the militia infiltration.
    As far as ministerial capacity building goes, it is very, 
very difficult, and I agree with some of the comments that I 
think Dr. Cordesman made earlier in regard to a different 
point, which is we must not measure success by the inputs that 
we throw at the problem, and we have to be careful about what 
outputs we measure.
    At the end of the day, the purpose of the Ministry of the 
Interior is to put police on the streets that can help support 
and sustain the establishment and the maintenance of security 
and that are not engaged in death squad activities and so 
forth. That is the metric that matters at the end of the day, 
to the extent that that is a metric, and it is very hard to 
measure, which is one of the problems.
    In terms of looking at numbers of trained and equipped, I 
think it is very clear that we do not have meaningful numbers 
at the Ministry of Interior. Will we? I am not sure, but this 
is something where I go back to Congressman Akin's point. As 
the Baghdad security plan goes forward, as we work to establish 
security throughout the country, we will be able to see to what 
extent the Iraqi police, both national and local, are 
participating actively and positively and to what extent they 
are not, and that is going to be an important measure of 
success.
    Mr. Perito. Let me take a shot at some of the questions you 
asked, and let me begin by talking about police transition 
teams.
    At the beginning of 2006, the Defense Department deployed 
police transition seems which were composed of mostly military 
police with a few U.S. civilian contractors provided by the 
DynCorp Corporation under an agreement with the Department of 
State.
    Their initial task was to go out and visit all the police 
stations in Iraq to find out how many police stations there 
were and then to do an evaluation of those police stations, and 
while they were there, if they had the time, to deliver on-the-
spot training to the Iraqi police.
    That effort was never finished. It got about halfway 
through, and then many of these PTTs were pulled off line and 
dispersed among police stations in Baghdad.
    The whole idea that you could send out a team of four or 
five people that would visit a police station in a day, do an 
evaluation and then train the police, you know, to an 
acceptable level and then move on is kind of ludicrous on the 
face of it.
    Now, who were the people that were involved here? Who were 
these military police? Well, mostly, they were not people who 
had been military police before. They were people in the 
reserves who had been in other specialties, such as field 
artillery, that were not being utilized. They were put through 
a rush two-or three-week training program, recycled as military 
police and sent out basically to provide force protection.
    Who were the people who were the civilians in this? They 
were independent subcontractors of DynCorp Corporation. It is 
difficult to know the standard of recruitment that was used, 
but sufficient to say, they probably were police at some point 
in their careers, but who knows? They certainly were not people 
who were trained either police evaluators or police educators 
and trainers. So we have that.
    If you look at the Ministry of the Interior, not only, you 
know, are we aware that Shiite militia had infiltrated the 
ministry, but we are also aware that the ministry really does 
not function as a bureaucratic entity. It does not have 
established rules or procedures. It does not have codes of 
conduct. It does not have a functioning budget process. It does 
not have a personnel process. It does not do any of these 
things.
    One of the things that it does not do, for example, is it 
does not have an effective system of accountability. So it does 
not know where its people are, where its equipment is, et 
cetera. So all of that is a huge problem.
    When you look at the issue of detainees, I think this 
raises an opportunity to talk about a program that has worked. 
The U.S. Department of Justice has had a small number of people 
in Iraq since the very beginning working on establishing an 
Iraqi prison system. The prison system takes people who have 
been to trial and then convicted.
    Okay. This is a small number of people, several thousand. 
These are facilities not too numerous. This is a new force that 
has been raised. But if you read the Department of Defense 
report to Congress of March 2007 and previous, you will find 
that it says that the Iraqi prison system and its personnel 
meet international standards, that the Iraqi prison system 
conforms to international levels and is working well at this 
point. It is too small, but it is working well.
    I think that is the kind of thing with the Department of 
Justice, where you are dealing with career professionals who 
have done this all their lives, that can happen. So that is one 
of the reasons behind my recommendation. that we transfer 
responsibility for the police from the Department of Defense 
and the United States military, which does not do police, to 
the Department of Justice and let the professionals take over.
    Mr. Meehan. Before Ms. Oliker answers, Dr. Kagan, we told 
you we would get you out of here at 3:30, and I want to give 
you this opportunity to leave and thank you for your testimony 
and thank you for your coming before the committee.
    Dr. Kagan. Thank you very much for the opportunity.
    Mr. Meehan. Thank you.
    Ms. Oliker. On the police transition teams, I have very 
little to add to what Mr. Perito said, except to just underline 
the fact that we do not have enough of them to cover the local 
police, and the people in them are often the wrong people.
    You know, this raises the question of getting the right 
civilian capacity in there, and this question of DOD being in 
charge of the police and, you know, back in 2004, when that 
decision was made, the decision was made because it was not 
working under civilian control. It was not moving quickly 
enough, and the thought was that DOD was getting the Ministry 
of Defense moving, you know, and the Army moving--the Army 
training was under way, the Ministry of Defense did not 
actually exist yet, but the Army training was under way--so 
surely they could deal with the police.
    There are all sorts of things wrong with that, but the 
problem is still how do you get civilians out there? Be they 
Department of Justice civilians or contractors, we just do not 
have that ready reserve of people to pull on to do these jobs, 
and that is going to continue to be the problem.
    In regards to ministry capacity, the Ministry of Interior, 
I have heard very little good about the Ministry of Interior 
since it was first set up from, you know, its very first 
minister. I have heard people say, ``let us dismantle the 
Ministry of Interior,'' you know, people speaking frankly about 
Iraq, but the thing is if you dismantle the Ministry of 
Interior, you have nothing resembling a police force out on the 
streets and what you do have is all these guys who might be 
criminals anyway, but they are still there with all their 
weapons running around.
    So is it possible to reform it from the inside? That has 
been the question all along, and, frankly, you know, its not 
working so far. It is a series of fiefdoms. It is corrupt. It 
is a very broken system.
    On detainee policy, the one thing I would say is that I 
also read the DOD, and I read the conclusion that the justice 
ministry prisons, the post-trial prisons meet international 
standards by some people in Iraq who were somewhat skeptical. 
Now, that is just an additional data point. I do not know. I 
have not seen the prisons, and, you know, I have not seen the 
detailed report. I think actually getting a real sense of what 
is going on in the broad range of detention facilities 
coalition in Iraq would be helpful.
    Mr. Meehan. Ms. Oliker, you were with the CPA in Iraq early 
2004, I believe. A Washington Post reporter wrote a book, 
``Imperial Life in the Emerald City: Life Inside the Green 
Zone.'' Did you read it by any chance?
    Ms. Oliker. Well, I was interviewed for it, so, yes, I read 
it.
    Mr. Meehan. Did you find it--we are out of time, but I want 
to ask you--A, accurately capture the culture in Iraq; B, 
somewhat capture the culture in Iraq; or C, did not capture the 
culture in Iraq?
    Ms. Oliker. Somewhat captured the culture in Iraq. He did 
not live in the Green Zone. He talked to a lot of people who 
had been there. It is a long story on what is right and what is 
wrong in that book, but it is one of the most surreal places I 
have ever been.
    Mr. Meehan. Thank you very much.
    Dr. Fenner. Mr. Chairman, can I just follow up quickly?
    Mr. Meehan. Sure.
    Dr. Fenner. I read that too, and it is certainly 
interesting.
    From all the comments that you have made, though, about the 
changes or shift with the Department of Justice taking over 
from the Department of Defense, are those discussions going on? 
Are people seriously contemplating that kind of a shift? I 
think part of it is our role here, which part of the 
discussions we really can focus on to the greatest extent, and 
whether the discussions are there or they are not.
    Mr. Perito. I do not believe so. The way the funding works 
is that funding goes to the State Department, and then the 
State Department make the decision, and then the funding would 
go to the Justice Department. So it is one reason why I said in 
my statement that Congress would have to give the Justice 
Department the authority and the funding to take over and run 
this program.
    Dr. Cordesman. May I just make a quick remark?
    Dr. Fenner. Yes.
    Dr. Cordesman. There are 135,000 people shown as trained 
and equipped in the police force. As it says very clearly, we 
haven the faintest number how many of those people have 
actually stayed, and, as Mr. Perito has pointed out, it also is 
not clear what is relevance.
    What bothers me a little about this discussion is I know in 
about at least 8 of the 12 cities that we monitor, those police 
are largely irrelevant, and when you do an actual map of who is 
the real security structure, not the Army, in most of Iraq, it 
really is not the police.
    So one of the things you honestly have to address is what 
would it take to deal with the mixture of militias, locally 
recruited police, party factions, FPS and other groups and 
actually fix this thing as distinguished from who are you going 
to put in charge, and then remember that you are asking us 
whether we can get this done by the beginning of 2008.
    When will anybody actually show up in the field and start 
any of this because it is not done in the ministry of interior 
in Baghdad. It is done in all of these police posts, in 
villages, in individual areas, and I get very concerned about 
the somewhat surrealistic discussions of putting people in 
charge in the ministry when the reality is who is doing what in 
the field.
    Dr. Fenner. Thank you.
    Was there anything else you would like to say? I really 
appreciate that, but I think it is always an important 
question, is what have we been missing, and continue to 
communicate with us. We would appreciate that.
    Thank you.
    Mr. Meehan. Thank you very much.
    Again, I think the witnesses for taking the time. Your 
testimony was enlightening, very important to this 
subcommittee, and thank you very much for appearing.
    The subcommittee is adjourned.
    [Whereupon, at 3:41 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 28, 2007

=======================================================================



 
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 28, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7323.001
    
    [GRAPHIC] [TIFF OMITTED] T7323.002
    
    [GRAPHIC] [TIFF OMITTED] T7323.003
    
    [GRAPHIC] [TIFF OMITTED] T7323.004
    
    [GRAPHIC] [TIFF OMITTED] T7323.005
    
    [GRAPHIC] [TIFF OMITTED] T7323.006
    
    [GRAPHIC] [TIFF OMITTED] T7323.007
    
    [GRAPHIC] [TIFF OMITTED] T7323.008
    
    [GRAPHIC] [TIFF OMITTED] T7323.009
    
    [GRAPHIC] [TIFF OMITTED] T7323.010
    
    [GRAPHIC] [TIFF OMITTED] T7323.011
    
    [GRAPHIC] [TIFF OMITTED] T7323.012
    
    [GRAPHIC] [TIFF OMITTED] T7323.013
    
    [GRAPHIC] [TIFF OMITTED] T7323.014
    
    [GRAPHIC] [TIFF OMITTED] T7323.015
    
    [GRAPHIC] [TIFF OMITTED] T7323.016
    
    [GRAPHIC] [TIFF OMITTED] T7323.017
    
    [GRAPHIC] [TIFF OMITTED] T7323.018
    
    [GRAPHIC] [TIFF OMITTED] T7323.019
    
    [GRAPHIC] [TIFF OMITTED] T7323.020
    
    [GRAPHIC] [TIFF OMITTED] T7323.021
    
    [GRAPHIC] [TIFF OMITTED] T7323.022
    
    [GRAPHIC] [TIFF OMITTED] T7323.023
    
    [GRAPHIC] [TIFF OMITTED] T7323.024
    
    [GRAPHIC] [TIFF OMITTED] T7323.025
    
    [GRAPHIC] [TIFF OMITTED] T7323.026
    
    [GRAPHIC] [TIFF OMITTED] T7323.027
    
    [GRAPHIC] [TIFF OMITTED] T7323.028
    
    [GRAPHIC] [TIFF OMITTED] T7323.029
    
    [GRAPHIC] [TIFF OMITTED] T7323.030
    
    [GRAPHIC] [TIFF OMITTED] T7323.031
    
    [GRAPHIC] [TIFF OMITTED] T7323.032
    
    [GRAPHIC] [TIFF OMITTED] T7323.033
    
    [GRAPHIC] [TIFF OMITTED] T7323.034
    
    [GRAPHIC] [TIFF OMITTED] T7323.035
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 28, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7323.036
    
    [GRAPHIC] [TIFF OMITTED] T7323.037
    
    [GRAPHIC] [TIFF OMITTED] T7323.038
    
    [GRAPHIC] [TIFF OMITTED] T7323.039
    
    [GRAPHIC] [TIFF OMITTED] T7323.040
    
    [GRAPHIC] [TIFF OMITTED] T7323.041
    
    [GRAPHIC] [TIFF OMITTED] T7323.042
    
    [GRAPHIC] [TIFF OMITTED] T7323.043
    
    [GRAPHIC] [TIFF OMITTED] T7323.044
    
    [GRAPHIC] [TIFF OMITTED] T7323.045
    
    [GRAPHIC] [TIFF OMITTED] T7323.046
    
    [GRAPHIC] [TIFF OMITTED] T7323.047
    
    [GRAPHIC] [TIFF OMITTED] T7323.048
    
    [GRAPHIC] [TIFF OMITTED] T7323.049
    
    [GRAPHIC] [TIFF OMITTED] T7323.050
    
    [GRAPHIC] [TIFF OMITTED] T7323.051
    
    [GRAPHIC] [TIFF OMITTED] T7323.052
    
    [GRAPHIC] [TIFF OMITTED] T7323.053
    
    [GRAPHIC] [TIFF OMITTED] T7323.054
    
    [GRAPHIC] [TIFF OMITTED] T7323.055
    
    [GRAPHIC] [TIFF OMITTED] T7323.056
    
    [GRAPHIC] [TIFF OMITTED] T7323.057
    
    [GRAPHIC] [TIFF OMITTED] T7323.058
    
    [GRAPHIC] [TIFF OMITTED] T7323.059
    
    [GRAPHIC] [TIFF OMITTED] T7323.060
    
    [GRAPHIC] [TIFF OMITTED] T7323.061
    
    [GRAPHIC] [TIFF OMITTED] T7323.062
    
    [GRAPHIC] [TIFF OMITTED] T7323.063
    
    [GRAPHIC] [TIFF OMITTED] T7323.064
    
    [GRAPHIC] [TIFF OMITTED] T7323.065
    
    [GRAPHIC] [TIFF OMITTED] T7323.066
    
    [GRAPHIC] [TIFF OMITTED] T7323.067
    
    [GRAPHIC] [TIFF OMITTED] T7323.068
    
    [GRAPHIC] [TIFF OMITTED] T7323.069
    
    [GRAPHIC] [TIFF OMITTED] T7323.070
    
    [GRAPHIC] [TIFF OMITTED] T7323.071
    
    [GRAPHIC] [TIFF OMITTED] T7323.072
    
    [GRAPHIC] [TIFF OMITTED] T7323.073
    
    [GRAPHIC] [TIFF OMITTED] T7323.074
    
    [GRAPHIC] [TIFF OMITTED] T7323.075
    
    [GRAPHIC] [TIFF OMITTED] T7323.076
    
    [GRAPHIC] [TIFF OMITTED] T7323.077
    
    [GRAPHIC] [TIFF OMITTED] T7323.078
    
    [GRAPHIC] [TIFF OMITTED] T7323.079
    
    [GRAPHIC] [TIFF OMITTED] T7323.080
    
    [GRAPHIC] [TIFF OMITTED] T7323.081
    
    [GRAPHIC] [TIFF OMITTED] T7323.082
    
    [GRAPHIC] [TIFF OMITTED] T7323.083
    
    [GRAPHIC] [TIFF OMITTED] T7323.084
    
    [GRAPHIC] [TIFF OMITTED] T7323.085
    
    [GRAPHIC] [TIFF OMITTED] T7323.086
    
    [GRAPHIC] [TIFF OMITTED] T7323.087
    
    [GRAPHIC] [TIFF OMITTED] T7323.088
    
    [GRAPHIC] [TIFF OMITTED] T7323.089
    
    [GRAPHIC] [TIFF OMITTED] T7323.090
    
    [GRAPHIC] [TIFF OMITTED] T7323.091
    
    [GRAPHIC] [TIFF OMITTED] T7323.092
    
    [GRAPHIC] [TIFF OMITTED] T7323.093
    
    [GRAPHIC] [TIFF OMITTED] T7323.094
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 28, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MEEHAN

    Mr. Meehan. According to DOD, improving the proficiency of all 
Iraqi military and police units is accomplished primarily through the 
efforts of Military Transition Teams. These MiTTS, composed of 6,000 
advisors in more than 480 teams, are embedded at all levels of Iraqi 
units in all major subordinate commands. A wide variety of transition 
teams are advising the ISF in a variety of venues. In its first 
assessment of transition teams done in 2006, the Center for Army 
Lessons Learned (CALL) said that advising the Iraqi Forces is one of 
the toughest jobs in the military. Transition teams typically operate 
far from secure forward operating bases and may have poor communication 
with other coalition units, limited sanitation and uncertain force 
protection. The Iraq Study Group (ISG) Report raised the issue of 
whether the military is putting the most qualified soldiers and leaders 
on transition teams and whether the career incentives that the military 
has in place to attract and retain qualified advisors are sufficient. 
The ISG recommended that ``the most highly qualified U.S. officers and 
military personnel should be assigned to the imbedded teams, and 
American teams should be present with Iraqi units down to the company 
level. The U.S. should establish suitable career-enhancing incentives 
for these officers and personnel.'' Based on your research and 
experience, what steps do you believe the Congress or the military 
could take to strengthen and improve these unconventional forces in 
terms of their: qualifications, leadership, selection, and training?
    Dr. Cordesman. [The witness did not respond in a timely manner.]
    Mr. Meehan. According to the 2006 CALL study, advisor teams operate 
under multiple chains of command simultaneously causing confusion of 
roles and authority, when they should have a clear unambiguous chain of 
command. Advisor teams are administratively controlled by the Iraq 
Assistance Group. They have a command relationship from their next 
higher level team. They support their Iraqi counterpart which is 
operationally controlled by the next higher level Iraqi formation or by 
the local coalition unit. The advisor team is operationally controlled 
by the coalition force in whose battle space they reside. Based on your 
research and experience, what steps do you believe either the Congress 
or the military could take to strengthen and improve these 
unconventional forces in terms of these command and control issues?
    Dr. Cordesman. [The witness did not respond in a timely manner.]
    Mr. Meehan. In a December 2006 HASC Hearing on Military Transition 
Teams in Iraq and Afghanistan, the question of how effectiveness of 
transition teams is measured was raised; DOD's witnesses were not able 
to fully answer the question. While they agreed that the proficiency of 
the Iraqi Army unit a transition team is partnered with should be an 
indicator, they were not able to offer any definitive set of 
effectiveness measures. A MiTT leader who returned from Iraq in March 
2007 said that the measure of success for an advisor team is 
proportional to the challenges of the unit they partner with and how 
that unit develops during the tenure of that team. He said that the 
Transition Readiness Assessment (TRA) are not a useful tool for 
measuring success. He stated that TRAs really reflect a shortsighted 
view that is useful only in gauging dependency on coalition forces. 
What do you believe would be good measures of effectiveness for both 
the ISF and the U.S. advisor teams supporting them?
    Dr. Cordesman. [The witness did not respond in a timely manner.]
    Mr. Meehan. Please provide a copy of part two of your report on the 
strategy for Iraq after its completion.
    Dr. Kagan. Phase II of the IPG Report has been sent under separate 
cover to the committee. [The information referred to can be found in 
the Appendix on page 125.]
    Mr. Meehan. According to DOD, improving the proficiency of all 
Iraqi military and police units is accomplished primarily through the 
efforts of Military Transition Teams. These MiTTs, composed of 6,000 
advisors in more than 480 teams, are embedded at all levels of Iraqi 
units in all major subordinate commands. A wide variety of transition 
teams are advising the ISF in a variety of venues. In its first 
assessment of transition teams done in 2006, the Center for Army 
Lessons Learned (CALL) said that advising the Iraqi Forces is one of 
the toughest jobs in the military. Transition teams typically operate 
far from secure forward operating bases and may have poor communication 
with other coalition units, limited sanitation and uncertain force 
protection. The Iraq Study Group (ISG) Report raised the issue of 
whether the military is putting the most qualified soldiers and leaders 
on transition teams and whether the career incentives that the military 
has in place to attract and retain qualified advisors are sufficient. 
The ISG recommended that ``the most highly qualified U.S. officers and 
military personnel should be assigned to the imbedded teams, and 
American teams should be present with Iraqi units down to the company 
level. The U.S. should establish suitable career-enhancing incentives 
for these officers and personnel.'' Based on your research and 
experience, what steps do you believe the Congress or the military 
could take to strengthen and improve these unconventional forces in 
terms of their: qualifications, leadership, selection, and training?
    Dr. Kagan. Based on my recent trips to Iraq (in early April and 
early May 2007), I believe that many of these concerns have already 
been addressed or are in the process of being addressed. The command in 
Iraq, particularly MNSTC-I, which has responsibility for these issues, 
is acutely aware of the importance of fielding teams of excellent 
officers with combat experience. The major problem is that officers at 
the ranks required, especially 0-5 and 0-6, with the desired expertise 
and skill sets are a scarce commodity in the Army, and they are needed 
as badly in the combat forces engaged in providing security to the 
population as in the MiTT teams. I believe that the Army as an 
institution and the commands in Iraq are balancing the requirement 
between fielding good MiTT teams and maintaining qualified personnel in 
the fighting BCTs appropriately. Given the importance of establishing 
security and the rapidly improving quality of the Iraqi Army, I would 
not recommend taking steps to improve or expand MiTT teams that would 
harm the Army's ability to field the necessary number of capable BCTs. 
I would take issue with the notion that MiTT teams are the only or even 
the best way to improve the capacity of the Iraqi Army at this point, 
moreover. MiTTs are extremely important, but the partnership between 
American Army and Marine units and Iraqi Army and Police units is at 
least as important. This partnership is growing in importance, 
moreover, as the Iraqi Army units are advancing in capacity and 
capability, and as our focus shifts appropriately to identifying and 
weeding out sectarian actors within the security forces, something that 
MiTTs are ill-equipped to do, but that partnered units do on a regular 
basis. This discussion does argue strongly for an expansion of the 
ground forces as rapidly as possible, and for the desirability of 
maintaining a reserve of officers at all ranks who can be used to fill 
out unexpected requirements like MiTT teams, rather than attempting to 
maintain a lean force with just enough personnel to man it.
    Mr. Meehan. According to the 2006 CALL study, advisor teams operate 
under multiple chains of command simultaneously causing confusion of 
roles and authority, when they should have a clear unambiguous chain of 
command. Advisor teams are administratively controlled by the Iraq 
Assistance Group. They have a command relationship from their next 
higher level team. They support their Iraqi counterpart which is 
operationally controlled by the next higher level Iraqi formation or by 
the local coalition unit. The advisor team is operationally controlled 
by the coalition force in whose battle space they reside. Based on your 
research and experience, what steps do you believe either the Congress 
or the military could take to strengthen and improve these 
unconventional forces in terms of these command and control issues?
    Dr. Kagan. Based on my recent visits and research, I believe that 
the problems identified in this question have been resolved as much as 
they can be. Iraq is a sovereign state with a chain of command of its 
own, a fact that is both inevitable and desirable. The MiTT teams, as I 
understand it, have now been placed under the authority of the BCT 
commanders in whose AORs they operate, thus greatly reducing the 
administrative confusion the committee rightly addresses here. This 
changed relationship has helped to ensure much greater coordination 
between the MiTT teams, the Iraqi units they advise, and the U.S. 
forces with which they are partnered. I observed a great deal of close 
coordination and solid partnership in all of the units I visited. I do 
not believe that further intervention is warranted in this area.
    Mr. Meehan. In a December 2006 HASC Hearing on Military Transition 
Teams in Iraq and Afghanistan, the question of how effectiveness of 
transition teams is measured was raised; DOD's witnesses were not able 
to fully answer the question. While they agreed that the proficiency of 
the Iraqi Army unit a transition team is partnered with should be an 
indicator, they were not able to offer any definitive set of 
effectiveness measures. A MiTT leader who returned from Iraq in March 
2007 said that the measure of success for an advisor team is 
proportional to the challenges of the unit they partner with and how 
that unit develops during the tenure of that team. He said that the 
Transition Readiness Assessment (TRA) are not a useful tool for 
measuring success. He stated that TRAs really reflect a shortsighted 
view that is useful only in gauging dependency on coalition forces.
    Dr. Kagan. Measuring the effectiveness of transition teams is 
extraordinarily difficult. Metrics that focus on the number of 
``trained and ready'' units or the number of units ``operating 
independently'' are nearly meaningless. Tens of thousands of Iraqi 
soldiers and police are actively fighting the insurgents, both Sunni 
and Shi'a, across Iraq today. They are in various states of readiness 
and capability and would no doubt produce an intriguing mosaic of 
metrics. What matters is that they are fighting and dying against our 
common enemy, and that is, at the end of the day, one of two key 
immeasurable ``metrics'' that matter. The other is at least as 
important but can be even more difficult to measure numerically--the 
degree of sectarian infiltration of the Iraqi units. Anecdotally (and I 
observed a number of units in many parts of the country during my two 
trips there), Iraqi Army units are functioning professionally, 
competently, and in a reasonably non-sectarian fashion. Certain Iraqi 
National Police units are also functioning in this way, but others have 
been infiltrated by sectarian actors. These units can be harmful when 
they are placed in positions that allow them to pursue their sectarian 
agendas.
    There is, therefore, an important tension in our efforts to improve 
the capacity of the Iraqi Security Forces across the board. Simply 
improving the capacity of sectarian units will hinder, not help, our 
efforts to stabilize Iraq and create a state that can survive our 
withdrawal over the long term. Some MiTT and NPTT teams that I observed 
are focused too heavily on simply building capacity. They must focus 
heavily as well on observing, identifying, and stopping sectarian 
behavior, reporting (with detailed evidence packets) sectarian behavior 
to their commanders and to the Iraqi commands, and pressing for units 
pursuing sectarian agendas to cease such activities or be removed and 
even disbanded if they persist. I have observed a number of U.S. units 
doing precisely these things to very good effect. They can restrain 
sectarian behavior, however, only by operating alongside the Iraqi 
units. MiTT and NPTT teams have a much harder time even recognizing 
sectarian behavior because they have much less opportunity to develop 
their own understanding of the neighborhood and the situation 
independent of the information they receive from Iraqi units. Improving 
the quality of the ISF overall will not come from an intensive focus on 
MiTT and NPTT teams. It requires the close integration of their efforts 
with those of coalition forces partnered with Iraqi units and operating 
together with them against insurgents, terrorists, and militias. Only 
in this way, finally, will we be able to gain an understanding of the 
real effects that ISF units are having on the ground--the ultimate 
measure of their effectiveness.
    Mr. Meehan. According to DOD, improving the proficiency of all 
Iraqi military and police units is accomplished primarily through the 
efforts of Military Transition Teams. These MiTTs, composed of 6,000 
advisors in more than 480 teams, are embedded at all levels of Iraqi 
units in all major subordinate commands. A wide variety of transition 
teams are advising the ISF in a variety of venues. In its first 
assessment of transition teams done in 2006, the Center for Army 
Lessons Learned (CALL) said that advising the Iraqi Forces is one of 
the toughest jobs in the military. Transition teams typically operate 
far from secure forward operating bases and may have poor communication 
with other coalition units, limited sanitation and uncertain force 
protection. The Iraq Study Group (ISG) Report raised the issue of 
whether the military is putting the most qualified soldiers and leaders 
on transition teams and whether the career incentives that the military 
has in place to attract and retain qualified advisors are sufficient. 
The ISG recommended that ``the most highly qualified U.S. officers and 
military personnel should be assigned to the imbedded teams, and 
American teams should be present with Iraqi units down to the company 
level. The U.S. should establish suitable career-enhancing incentives 
for these officers and personnel.'' Based on your research and 
experience, what steps do you believe the Congress or the military 
could take to strengthen and improve these unconventional forces in 
terms of their: qualifications, leadership, selection, and training?
    Ms. Oliker. There is, indeed significant concern regarding the 
training and quality of personnel chosen to embed with Iraqi security 
forces. I would divide the problem into two categories. First is the 
question of embedding military personnel with civilian police units. As 
I noted in my testimony, because of the differences between military 
and civilian goals and methods, this creates fundamental problems in 
the development of Iraq's police capacity--which is crucial to both 
today's ongoing conflict and, in the event of eventual stabilization, 
to the institutions that a future peaceful Iraq inherits. In regard to 
the military personnel who are embedded, my understanding is that the 
U.S. armed forces have improved training and sought to improve 
incentives for U.S. personnel being prepared for the embedding mission, 
but more could certainly be done. The integration of personnel who have 
served as embedded advisors into the development of the training 
program is a key component. The focus on stability operations and 
policing type tactics and approaches is also crucial--the Iraqi forces 
that U.S. forces are advising must work among the Iraqi population and 
gain their trust, the U.S. forces should be in a position to help them 
do that. For that they need to understand the mechanisms of operating 
under circumstances in which the population may be hostile, but must be 
protected nonetheless. Selection is another issue. Identifying the best 
people is far easier than convincing them to take part in a job that is 
dangerous, lengthy, and may not be rewarded with promotion. Ensuring 
that the opportunities for promotion are there can be helpful, but the 
experience of Vietnam, where many former advisors found that they were 
not given the opportunities they had been promised, is telling. The 
U.S. military will have to follow through. Of course, insofar as future 
missions are likely to have as a component the building of security 
forces in post-conflict and conflict countries may indicate that this 
is a new area of specialization for the armed forces. It is worth 
considering whether it should be treated as such.
    Mr. Meehan. According to the 2006 CALL study, advisor teams operate 
under multiple chains of command simultaneously causing confusion of 
roles and authority, when they should have a clear unambiguous chain of 
command. Advisor teams are administratively controlled by the Iraq 
Assistance Group. They have a command relationship from their next 
higher level team. They support their Iraqi counterpart which is 
operationally controlled by the next higher level Iraqi formation or by 
the local coalition unit. The advisor team is operationally controlled 
by the coalition force in whose battle space they reside. Based on your 
research and experience, what steps do you believe either the Congress 
or the military could take to strengthen and improve these 
unconventional forces in terms of these command and control issues?
    Ms. Oliker. I think that the Command and Control component is 
important, and should be streamlined to the extent possible. That said, 
ensuring appropriate accountability and transparency is no less 
important. A thorough review of C2 systems and accountability 
requirements might be called for to rationalize the process.
    Mr. Meehan. In a December 2006 HASC Hearing on Military Transition 
Teams in Iraq and Afghanistan, the question of how effectiveness of 
transition teams is measured was raised; DOD's witnesses were not able 
to fully answer the question. While they agreed that the proficiency of 
the Iraqi Army unit a transition team is partnered with should be an 
indicator, they were not able to offer any definitive set of 
effectiveness measures. A MiTT leader who returned from Iraq in March 
2007 said that the measure of success for an advisor team is 
proportional to the challenges of the unit they partner with and how 
that unit develops during the tenure of that team. He said that the 
Transition Readiness Assessment (TRA) are not a useful tool for 
measuring success. He stated that TRAs really reflect a shortsighted 
view that is useful only in gauging dependency on coalition forces. 
What do you believe would be good measures of effectiveness for both 
the ISF and the U.S. advisor teams supporting them?
    Ms. Oliker. The measures of success depend on what goals are to be 
attained. If the goal is simply to improve Iraqi security forces, then 
the measure of success is the difference in their capability, in any 
given area, from the time training begins to the time it ends. That, 
however, does not bring us closer to the goal of having Iraqi forces 
that are capable of carrying out specific tasks, such as ensuring the 
security of a community or a region, being able to apprehend and 
interrogate prisoners without violating human rights, be trusted by the 
public sufficiently that they are provided with tips and other 
intelligence, and be able to carry out operations of various sorts 
independently (to name just a handful). Their dependence, or lack 
thereof, on coalition forces is also a very important indicator, and 
should not be dismissed. It is true that overall assessments like the 
TRAs seek to condense scores and capabilities in a number of areas such 
as these into a single assessment. This is, indeed, not as informative 
as it could be and it is important to be able to understand the 
components that go into that score, so as to assess whether or not the 
right things are being measured, and whether the weights assigned to 
them in preparing the overall score are appropriate. The true measures 
will be a variety of qualitative and quantitative indicators that 
measure the Iraqi forces' capacity to carry out the key tasks called 
for by their job description (which will vary based on whether they are 
local police, national police, or various units of the Iraqi military), 
their capacity to gain the trust of the community, their loyalty, their 
absentee rates, their desertion rates, their death rates, their 
recruitment rates and vetting procedures, their deployability (if 
relevant), the numbers of tips that they receive, the rates and forms 
of violence in the areas they are responsible for, and what happens 
when abuses are reported. Evaluations of U.S. trainers are somewhat 
trickier, but two key factors should be considered. The first is their 
ability to improve the performance of the Iraqis they work with, 
bringing them closer to independent capacity. The second is their 
ability to recognize when efforts aren't working or could be improved 
and to find ways to adjust them to make them more effective.

                                  <all>

</pre></body></html>
